No. 21-

IN THE

SUPREME COURT OF THE UNITED STATES
RAFIQ SABIR,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for a Writ of Certiorari to
The United States Court of Appeals for the Second Circuit
APPENDIX

ALLIE J. HALLMARK
Counsel of Record
CHARLES D. SWIFT
Director
CONSTITUTIONAL LAW CENTER
FOR MUSLIMS IN AMERICA
100 North Central Expressway
Suite 1010
Richardson, TX 75080
(972) 914-2507
ahallmark@clcma.org
cswift@clcma.org
Counsel for Petitioner

INDEX OF APPENDICES
Appendix

Description

Page

Appendix A

Order of Second Circuit denying Dr. Sabir’s
Motion for a Certificate of Appealability, Sabir v.
United States, No. 20-4141, 2021 U.S. App.
LEXIS 18034 (2d Cir. May 5, 2021).

1a

Appendix B

Opinion and Order of District Court denying Dr.
Sabir’s § 2255 Habeas Motion and Motion for
Leave to Amend, Sabir v. United States, No. 12cv-8937, 2020 U.S. Dist. LEXIS 192391 (S.D.N.Y.
Oct. 16, 2020).

2a

Appendix C

Opinion of Second Circuit affirming Dr. Sabir’s
conviction and sentence on direct appeal, United
States v. Farhane, 634 F.3d 127 (2d Cir. 2011).

17a

Case 20-4141, Document 29, 05/05/2021, 3093754, Page1 of 1

S.D.N.Y.-N.Y.C.
12-cv-8937
Preska, J.

United States Court of Appeals
FOR THE

SECOND CIRCUIT
_________________

At a stated term of the United States Court of Appeals for the Second
Circuit, held at the Thurgood Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 5th day of May, two thousand twenty-one.
Present:

Rosemary S. Pooler,
Reena Raggi,
Susan L. Carney,
Circuit Judges.

_________________________________________________
Rafiq Sabir,

Petitioner-Appellant,
v.

20-4141

United States of America,
Respondent-Appellee.
_________________________________________________
Appellant moves for a certificate of appealability. Upon due consideration, it is hereby
ORDERED that the motion is DENIED and the appeal is DISMISSED because Appellant has not
“made a substantial showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c); see also
Miller-El v. Cockrell, 537 U.S. 322, 327 (2003).
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk of Court

Appendix A
1a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 1 of 15

Appendix B
2a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 2 of 15

3a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 3 of 15

4a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 4 of 15

5a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 5 of 15

6a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 6 of 15

7a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 7 of 15

8a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 8 of 15

9a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 9 of 15

10a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 10 of 15

11a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 11 of 15

12a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 12 of 15

13a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 13 of 15

14a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 14 of 15

15a

Case 1:12-cv-08937-LAP Document 58 Filed 10/16/20 Page 15 of 15

16a

Caution
As of: September 22, 2021 8:49 PM Z

United States v. Farhane
United States Court of Appeals for the Second Circuit
February 17, 2009, Argued; February 4, 2011, Decided
Docket Nos. 07-1968-cr (L), 07-5531-cr (CON)
Reporter
634 F.3d 127 *; 2011 U.S. App. LEXIS 2201 **; 84 Fed. R. Evid. Serv. (Callaghan) 794

UNITED STATES OF AMERICA, Appellee, -v.ABDULRAHMAN FARHANE, also known as "Abderr
Farhan," and RAFIQ SABIR, Defendants-Appellants.

Disposition: AFFIRMED.

Subsequent History: US Supreme Court certiorari
denied by Sabir v. United States, 565 U.S. 1088, 132 S.
Ct. 833, 181 L. Ed. 2d 542, 2011 U.S. LEXIS 8771 (Dec.
5, 2011)
Post-conviction relief denied at, Motion denied by, As
moot United States v. Farhane, 2020 U.S. Dist. LEXIS
56137 (S.D.N.Y., Mar. 31, 2020)

Prior History: [**1] In this appeal from a judgment of
conviction entered after a jury trial in the United States
District Court for the Southern District of New York
(Loretta A. Preska, Chief Judge), defendant Rafiq Sabir
contends that (1) 18 U.S.C. § 2339B, under which he
was convicted for providing and conspiring to provide
material support to a terrorist organization, is
unconstitutionally vague and overbroad; (2) the trial
evidence was insufficient to support his conviction; (3)
the government's use of peremptory juror challenges
exhibited racial bias in violation of the Fourteenth
Amendment; (4) erroneous evidentiary rulings violated
his rights to confrontation and/or a fair trial; (5) the
district court abused its discretion in addressing alleged
juror misconduct; and (6) the government's rebuttal
summation deprived him of a fair trial. We reject these
arguments as without merit.

United States v. Sabir, 2007 U.S. Dist. LEXIS 34372
(S.D.N.Y., May 9, 2007)
United States v. Shah, 474 F. Supp. 2d 492, 2007 U.S.
Dist. LEXIS 6403 (S.D.N.Y., Jan. 30, 2007)

JENNIFER G. RODGERS, Assistant United States
Attorney (Karl Metzner, Assistant United States
Attorney, on the brief), on behalf of Michael J. Garcia,
United States Attorney for the Southern District of New
York, New York, [**2] New York, for Appellee.
Judges: Before: WINTER, RAGGI, Circuit Judges, and
DEARIE, Chief District Judge. 1 Judge Raggi concurs in
part in a separate opinion. Judge Dearie dissents in part
in a separate opinion.

Certificate of appealability denied United States v.
Farhane, 2020 U.S. Dist. LEXIS 73999 (S.D.N.Y., Apr.
27, 2020)

United States v. Sabir, 628 F. Supp. 2d 414, 2007 U.S.
Dist. LEXIS 77952 (S.D.N.Y., Oct. 15, 2007)

Counsel: EDWARD D. WILFORD (Natali J.H. Todd, on
the brief), New York, New York, for DefendantAppellant.

Opinion
[*130] REENA RAGGI, Circuit Judge:
Go to table1
[*132] Defendant [**3] Rafiq Sabir, whose birth name
is Rene Wright, is a United States citizen and licensed
physician who, in May 2005, swore an oath of
allegiance to al Qaeda and promised to be on call to
treat wounded members of that terrorist organization in
Saudi Arabia. Convicted after a jury trial in the United
States District Court for the Southern District of New
York (Loretta A. Preska, Chief Judge) of conspiring to
provide and actually providing or attempting to provide
material support to a terrorist organization in violation of
18 U.S.C. § 2339B, and sentenced to a 300-month term
of incarceration, Sabir now challenges his conviction on
various grounds. Specifically, he contends that (1) §

1 Chief

District Judge Raymond J. Dearie of the Eastern
District of New York, sitting by designation.

Appendix C
17a

634 F.3d 127, *132; 2011 U.S. App. LEXIS 2201, **3
2339B is unconstitutionally vague and overbroad, (2)
the trial evidence was insufficient to support his
conviction, (3) the prosecution's peremptory jury
challenges exhibited racial bias, (4) evidentiary rulings
deprived him of the right of confrontation and/or a fair
trial, (5) the district court abused its discretion in
addressing alleged juror misconduct, and (6) the
prosecution's rebuttal summation deprived him of a fair
trial. For the reasons explained in this opinion, we
conclude that these arguments [**4] lack merit.
Accordingly, we affirm Sabir's judgment of conviction. 2

I. Background
A. 2001: The Initial FBI Investigation into Co-Defendant
Tarik Shah
Defendant Rafiq Sabir is a New York licensed physician,
trained at Columbia University, who specializes in
emergency medicine. In 2001, the Federal Bureau of
Investigation began investigating Sabir's longtime friend
Tarik Shah for the possible transfer of money to
insurgents in Afghanistan. As part of that investigation,
an FBI confidential informant known as "Saeed"
cultivated a relationship with Shah, in the course of
which Shah was recorded speaking openly about his
commitment to jihad (holy war) in order to establish
Sharia (Islamic law) and about his wish to provide
"deadly and dangerous" martial arts training to
mujahideen (jihad warriors). Gov't Exh. ("GX") 802T at
1-2; GX 803T at 2-4; GX 804T at 3; Trial Tr. at 590-91,
601-03. 3 During these conversations, Shah repeatedly
identified Sabir as his "partner." GX 801T at 1; GX 807T
at 3; see Trial Tr. at 903-04.

recruiter for al Qaeda. 4 In a series of recorded [*133]
meetings with Agent Soufan, Shah detailed his martial
arts expertise and offered to travel abroad to train al
Qaeda combatants. Shah also told Soufan about Sabir,
"an emergency room doctor" who had been his "trusted
friend[]" for more than 25 years. GX 902T at 2, 7.
Explaining that he knew Sabir's "heart," Shah proposed
that the two men join al Qaeda as "a pair, me and a
doctor." Id. at 3, 23. At a subsequent meeting with
Saeed, Shah reported that he had spoken in person
with Sabir about this plan.
Shah and Agent Soufan next met in Orlando, Florida, in
April 2004, at which time Shah agreed to prepare a
syllabus for a martial arts training course as well as a
training video. Shah also questioned Soufan at this
meeting about al Qaeda suicide bombings and asked
whether he could receive, [**7] as well as provide,
terrorist training.
C. 2005: Shah and Sabir Swear Allegiance to al Qaeda
and Attempt To Provide Material Support
For most of the time between May 2004 and May 2005,
Sabir was out of the United States, working at a Saudi
military hospital in Riyadh. On May 20, 2005, during a
visit to New York, Sabir met with Saeed and Agent
Soufan at Shah's Bronx apartment. Sabir told Soufan
that he would soon be returning to Riyadh. He
expressed interest in meeting with mujahideen
operating in Saudi Arabia and agreed to provide medical
assistance to any who were wounded. See GX 906T at
15, 87. He suggested that he was ideally situated to
provide such assistance because he would have a car
in Riyadh and "carte blanche" to move freely about the

B. 2004: Shah Offers to Support al Qaeda
On March 3, 2004, Saeed and Shah traveled to
Plattsburgh, New York, where Saeed introduced Shah
to Ali Soufan, an undercover FBI agent posing as a

2 In

a separate order issued today, we dismiss the appeal of
Sabir's co-defendant Abdulrahman Farhane.
3 Trial

evidence indicated that beginning in the mid-1990s,
Shah in fact taught [**5] martial arts classes at numerous
locations, including two mosques in suburban Maryland and
another two in upstate New York, as well as at his own martial
arts school in New York City. Participants in these classes
testified that Shah taught them the use of deadly weapons and
lethal fighting techniques, while exhorting them to embrace
jihad.

4 Al

Qaeda is the most notorious terrorist group presently
pursuing jihad against the United States. In February 1998,
[**6] its leaders, including Osama bin Laden and Ayman al
Zawahiri, issued an infamous fatwa (religious decree)
pronouncing it the individual duty of every Muslim to kill
Americans and their allies — whether civilian or military — in
any country where that could be done. For a detailed
discussion of this fatwa and al Qaeda's terrorist activities up to
2004 — including the 1998 bombings of American embassies
in Kenya and Tanzania, which killed 224 people; the October
2000 bombing of the USS Cole, which took 17 lives; and the
September 11, 2001 airplane attacks on the World Trade
Center and the Pentagon, which killed 2,973 persons ? see
The National Commission on Terrorist Attacks Upon the
United States, The 9/11 Commission Report (2004). See also
United States v. Moussaoui, 591 F.3d 263, 273-74 (4th Cir.
2010); In re Terrorist Bombings of U.S. Embassies in East
Africa, 552 F.3d 93, 103-05 (2d Cir. 2008).

Page 2 of 41
18a

634 F.3d 127, *133; 2011 U.S. App. LEXIS 2201, **6
city. Id. at 67.
To ensure that Shah and Sabir were, in fact, knowingly
proffering support for terrorism, Soufan stated that the
purpose of "our war, . . . our jihad" is to "[e]xpel the
infidels from the Arabian peninsula," id. at 22, and he
repeatedly identified "Sheikh Osama" (in context a clear
reference to Osama bin Laden) as the leader of that
effort, see, e.g., id. at 31, 34, 59, 87, 98-99. Shah
quickly agreed to the need for war to "[e]xpel [**8] the
Jews and the Christians from the Arabian Peninsula," id.
at 22, while Sabir observed that those fighting such a
war were "striving in the way of Allah" and "most
deserving" of his help, id. at 66.
To permit mujahideen needing medical assistance to
contact him in Riyadh, Sabir provided Soufan with his
personal and work telephone numbers. See id. at 40,
83. When Shah and Soufan noted that writing down this
contact information might create a security risk, Sabir
encoded the numbers using a code provided by Soufan.
See id. at 49-53.
Sabir and Shah then participated in bayat, a ritual in
which each swore an oath of allegiance to al Qaeda,
promising to serve as a "soldier of Islam" and to protect
"brothers on the path of Jihad" and "the path of al
Qaeda." Id. at 106-08, 114-16. The men further swore
obedience to "the guardians of the pledge," whom
Soufan expressly identified as "Sheikh Osama," i.e.,
Osama bin Laden, and his second in command, "Doctor
Ayman Zawahiri." Id. at 98, 108-10, 115.
D. Prosecution and Conviction
Shah and Sabir were arrested on May 28, 2005, and
thereafter indicted in the [*134] Southern District of
New York on charges that between October 2003 and
May 2005, they (1) conspired [**9] to provide material
support or resources to the terrorist organization al
Qaeda, see 18 U.S.C. § 2339B; and (2) provided or
attempted to provide such support, see id. §§ 2339B, 2.
See Indictment ¶¶ 1-2, United States v. Shah, S4 05 Cr.
673 (LAP) (S.D.N.Y. filed June 27, 2005). 5 The two
counts used identical language to describe three types
of material support that defendants provided, attempted

5 Shah

and Sabir were not named in [**10] Counts Three and
Four of the indictment, charging Mahmud Faruq Brent with
conspiring to provide and providing material support in the
form of personnel to the terrorist organization Lashkar-eTaiba. See Indictment ¶¶ 3-4. We do not discuss these
charges further in this opinion.

to provide, or conspired to provide:
(i) one or more individuals (including themselves) to
work under al Qaeda's direction and control and to
organize, manage, supervise, and otherwise direct
the operation of al Qaeda, (ii) instruction and
teaching designed to impart a special skill to further
the illegal objectives of al Qaeda, and (iii) advice
and assistance derived from scientific, technical
and other specialized knowledge to further the
illegal objectives of al Qaeda.
Id. ¶¶ 1-2. The two counts further alleged that Shah
would provide "martial arts training and instruction for
jihadists," while Sabir would provide "medical support to
wounded jihadists," both defendants "knowing that al
Qaeda had engaged and engages in terrorist activity"
and "terrorism." Id.
After Shah pleaded guilty on April 4, 2007, to Count One
of the indictment, trial against Sabir commenced on
April 24. On May 21, 2007, the jury found Sabir guilty on
both the conspiratorial and substantive charges against
him, and, on November 28, 2007, the district court
sentenced him principally to 300 months' incarceration.
This appeal followed.

II. Discussion
A. 18 U.S.C. § 2339B Is Not Unconstitutionally Vague
as Applied to Sabir's Case
In raising a constitutional challenge to his conviction,
Sabir relies on the same argument he urged in the
district court in unsuccessfully seeking dismissal of his
indictment: that 18 U.S.C. § 2339B is void for
vagueness and overbroad in defining the conduct
proscribed. See United States v. Shah, 474 F. Supp. 2d
492, 496-500 (S.D.N.Y. 2007). Upon de novo review,
see Arriaga v. Mukasey, 521 F.3d 219, 222 (2d Cir.
2008), we conclude that the argument is without merit
as § 2339B [**11] presents no overbreadth concerns
and is not unconstitutionally vague as applied to Sabir's
conduct.
1. The Statutory Framework
Preliminary to explaining our reasons for rejecting
Sabir's vagueness challenge, we review the relevant
statutory framework. Title 18 U.S.C. § 2339B(a)(1)
imposes criminal liability on anyone who "knowingly
provides material support or resources to a foreign
terrorist organization, or attempts or conspires to do so."

Page 3 of 41
19a

634 F.3d 127, *134; 2011 U.S. App. LEXIS 2201, **11
6

[*135] The statute expressly conditions liability on a
person having knowledge that the relevant organization
is a "designated terrorist organization" or "has engaged
or engages in terrorist activity" or "terrorism" consistent
with various specified provisions of law. 18 U.S.C. §
2339B(a)(1); see Holder v. Humanitarian Law Project,
130 S. Ct. 2705, 2709, 177 L. Ed. 2d 355 (2010)
(holding that "knowledge about the organization's
connection to terrorism, not specific intent to further the
organization's terrorist activities," is mental state
required to prove violation of § 2339B). 7

6 Section

2339B, entitled "Providing material support or
resources to designated foreign terrorist organizations" was
enacted as part of the Antiterrorism and Effective Death
Penalty Act of 1996 [**12] ("AEDPA"), Pub. L. No. 104-132, §
303(a), 110 Stat. 1214, 1250 (1996), to supplement 18 U.S.C.
§ 2339A, entitled "Providing material support to terrorists,"
which was enacted two years earlier as part of the Violent
Crime Control and Law Enforcement Act, Pub. L. No. 103-322,
§ 12005(a), 108 Stat. 1796, 2022 (1994). These statutory
provisions have been substantively amended twice: first, in
response to al Qaeda's September 11, 2001 attacks on the
United States, by the Uniting and Strengthening America by
Providing Appropriate Tools Required to Intercept and
Obstruct Terrorism Act ("USA PATRIOT Act"), Pub. L. No.
107-56, § 810(d), 115 Stat. 272, 380 (2001); and second, by
the Intelligence Reform and Terrorism Prevention Act
("IRTPA"), Pub. L. No. 108-458, § 6603(c), 118 Stat. 3638,
3762-63 (2004). As Sabir stands convicted under the latest
iteration of the statute, we cite thereto in this opinion.
7 Al

Qaeda's designation as a terrorist organization pursuant to
Section 219 of the Immigration and Nationality Act, 8 U.S.C. §
1189, is undisputed. See 64 Fed. Reg. 55,112 (1999); 66 Fed.
Reg. 51,088 (2001); 68 Fed. Reg. 56,860 (2003). The United
States' response to al Qaeda has not, however, [**13] been
limited to such designation. Two successive administrations
have indicated that the nation is at "war" with al Qaeda. See
Press Release of Remarks by President Obama on
Strengthening Intelligence and Aviation Security, Jan. 7, 2010
("We are at war. We are at war against al Qaeda, a farreaching network of violence and hatred that attacked us on
9/11, that killed nearly 3,000 innocent people, and that is
plotting to strike us again. And we will do whatever it takes to
defeat them."); Eric Lichtblau, Bush Seeks to Affirm a
Continuing War on Terror, N.Y. Times, Aug. 30, 2008, at A10
(quoting administration proposal that Congress "acknowledge
again and explicitly that this nation remains engaged in an
armed conflict with Al Qaeda . . . and associated
organizations, who have already proclaimed themselves at
war with us and who are dedicated to the slaughter of
Americans"). The executive locates support for its actions in
Congress's September 18, 2001 Authorization for Use of
Military Force, Pub. L. No. 107-40, 115 Stat. 224 (2001). See,

In identifying the "material support or resources" whose
provision to a designated terrorist organization is
proscribed, § 2339B references the definition of that
term "in section 2339A (including the definitions of
'training' and 'expert advice or assistance' in that
section)." Id. § 2339B(g)(4). Section 2339A states, in
pertinent part:
(1) the term "material support or resources" means
any property, tangible or intangible, or service,
including currency or monetary instruments or
financial securities, financial services, lodging,
training, expert advice or assistance, safehouses,
false
documentation
or
identification,
communications equipment, facilities, weapons,
lethal substances, explosives, personnel (1 or more
individuals who may be or include oneself), and
transportation, except medicine or religious
materials;
(2) the term "training" means instruction or teaching
[**15] designed to impart a specific skill, as
opposed to general knowledge; and
(3) the term "expert advice or assistance" means
advice or assistance derived from scientific,
technical or other specialized knowledge.
[*136] Id. § 2339A(b). 8
With respect to the provision of "personnel," § 2339B
limits liability to persons who have "knowingly provided,
attempted to provide, or conspired to provide a foreign
terrorist organization with 1 or more individuals (who
may be or include himself) to work under that terrorist
organization's direction or control or to organize,
manage, supervise, or otherwise direct the operation of
that organization." Id. § 2339B(h). The statute states
that "[i]ndividuals who act entirely independently of the
foreign terrorist organization to advance its goals or
objectives shall not be considered to be working under
e.g., Harold Hongju Koh, Legal Adviser, U.S. Department of
State, Address to the Annual Meeting of the American Society
of International Law: The Obama [**14] Administration and
International
Law
(Mar.
25,
2010),
available
at
http://www.state.gov/s/l/releases/remarks/139119.htm
(explaining that in light of al Qaeda's "horrific" attacks on the
United States, the United States is "in an armed conflict with al
Qaeda" that is justified by both international and domestic
law).
8 Title

18 U.S.C. § 2339B(i), added by IRTPA, precludes any
construction or application of § 2339B that abridges the
exercise of First Amendment rights. This necessarily extends
to those parts of § 2339A incorporated into § 2339B, such as
these definitions.

Page 4 of 41
20a

634 F.3d 127, *136; 2011 U.S. App. LEXIS 2201, **14
the foreign terrorist organization's direction and control."
Id.; see Holder v. Humanitarian Law Project, 130 S. Ct.
at 2728 [**16] (emphasizing that statute "avoid[s] any
restriction on independent advocacy, or indeed any
activities not directed to, coordinated with, or controlled
by foreign terrorist groups").
2. Sabir's Vagueness Claim
For a conviction to comport with the constitutional
mandate of due process, see U.S. Const. amend. V, the
penal statute at issue must define the criminal offense
(1) "with sufficient definiteness that ordinary people can
understand what conduct is prohibited" and (2) "in a
manner that does not encourage arbitrary and
discriminatory enforcement." Kolender v. Lawson, 461
U.S. 352, 357, 103 S. Ct. 1855, 75 L. Ed. 2d 903 (1983);
accord Holder v. Humanitarian Law Project, 130 S. Ct.
at 2718; United States v. Rybicki, 354 F.3d 124, 129 (2d
Cir. 2003) (en banc). Sabir argues that his conviction
violates both prongs of this void-for-vagueness doctrine
because § 2339B's prohibitions against providing
"personnel," "training," and "expert advice and
assistance" to terrorist organizations are overbroad and
afford insufficient notice to persons who may traduce
those prohibitions and inadequate standards for
authorities who must enforce them. He contends further
that the statutory exception for "medicine" is too vague
to have [**17] put him on notice that it did not
encompass his consultative services as a physician.
a. Sabir Fails to Demonstrate Facial Vagueness or
Overbreadth
Sabir contends that § 2339B is unconstitutionally vague
both on its face and as applied to his case. In support of
his facial challenge, Sabir relies primarily on the
overbreadth doctrine. This confuses the issue. As the
Supreme Court recently observed, vagueness and
overbreadth are distinct concerns, the first implicating
the Due Process Clause and the latter the First
Amendment. See Holder v. Humanitarian Law Project,
130 S. Ct. at 2719. A statute whose application is clear
is not rendered unconstitutionally vague because it
proscribes expression protected by the First
Amendment. Id. In any event, Sabir fails to state an
overbreadth claim.
A law is unconstitutionally overbroad if it "punishes a
substantial amount of protected free speech, judged in
relation to [its] plainly legitimate sweep." Virginia v.
Hicks, 539 U.S. 113, 118-19, 123 S. Ct. 2191, 156 L.
Ed. 2d 148 (2003) (internal quotation marks omitted). A
finding of overbreadth invalidates all enforcement of a

challenged law, unless it can be saved by a limiting
construction. Id. at 119. Mindful that such relief is
"strong [**18] medicine," the law rigorously enforces the
burden on the challenging party to demonstrate
"substantial" infringement [*137] of speech. United
States v. Williams, 553 U.S. 285, 292, 128 S. Ct. 1830,
170 L. Ed. 2d 650 (2008) (emphasis in original). Sabir's
recitation of the applicable legal standards and his
conclusory declaration that § 2339B is overbroad do not
come close to carrying this burden.
As the Supreme Court stated in rejecting a First
Amendment challenge to § 2339B, the statute leaves
persons free to "say anything they wish on any topic,"
including terrorism. Holder v. Humanitarian Law Project,
130 S. Ct. at 2722-23. It does not prohibit independent
advocacy of any kind. See id. at 2723, 2728. It does not
prohibit or punish mere membership in or association
with terrorist organizations. See id. at 2723, 2730. Thus,
it does not seek
to suppress ideas or opinions in the form of 'pure
political speech.' Rather, [it] prohibit[s] 'material
support,' which most often does not take the form of
speech at all. And when it does, the statute is
carefully drawn to cover only a narrow category of
speech to, under the direction of, or in coordination
with foreign groups that the speaker knows to be
terrorist organizations.
Id. at 2723. [**19] Such circumstances do not evidence
overbreadth.
To the extent Sabir asserts that § 2339B is overbroad in
limiting "a doctor's right to practice medicine,"
Appellant's Br. at 14-15, he cites no authority locating
such a right within the Constitution, much less in the
First Amendment. The Supreme Court has long held
that "there is no right to practice medicine which is not
subordinate to the police power of the states . . . and
also to the power of Congress to make laws necessary
and proper" to the exercise of its constitutional authority.
Lambert v. Yellowley, 272 U.S. 581, 596, 47 S. Ct. 210,
71 L. Ed. 422, 5 Ohio Law Abs. 88 (1926) (Brandeis, J.)
(rejecting physician's claim that, despite powers
conferred on Congress by Eighteenth Amendment, he
held constitutional right to prescribe such medicines as
he deemed best to effect patient's cure); see also Conn
v. Gabbert, 526 U.S. 286, 291-92, 119 S. Ct. 1292, 143
L. Ed. 2d 399 (1999) (observing that there is no due
process right to practice one's profession free of any
restraints and that due process is violated only by
"complete prohibition of the right to engage in a
calling"); Dent v. West Virginia, 129 U.S. 114, 122, 9 S.

Page 5 of 41
21a

634 F.3d 127, *137; 2011 U.S. App. LEXIS 2201, **19
Ct. 231, 32 L. Ed. 623 (1889) ("[T]here is no arbitrary
deprivation of [the right to practice medicine] where its
exercise is [**20] not permitted because of a failure to
comply with conditions imposed by the state for the
protection of society."). With particular reference to the
First Amendment, a plurality of the Court in Planned
Parenthood of Southeastern Pennsylvania v. Casey,
505 U.S. 833, 112 S. Ct. 2791, 120 L. Ed. 2d 674
(1992), rejected a First Amendment challenge to a state
law requiring physicians to provide patients with specific
information about certain medical risks, observing that
"[t]o be sure, the physicians' First Amendment rights not
to speak are implicated, . . . but only as part of the
practice of medicine, subject to reasonable licensing
and regulation by the State," id. at 884 (plurality
opinion). Because Sabir thus cannot claim a "right" to
provide medical treatment for terrorists that is not
"subordinate to . . . the power of Congress to make laws
necessary and proper" to the nation's defense, Lambert
v. Yellowley, 272 U.S. at 596; see U.S. Const. art. I, § 8,
he cannot mount a claim that § 2339B is
unconstitutionally overbroad.
Nor can Sabir demonstrate overbreadth by faulting §
2339B for not requiring proof of his "specific intent to
further . . . terrorist activities." Appellant's Br. at 24; see
Holder v. Humanitarian Law Project, 130 S. Ct. at 2718
[**21] (construing § 2339B not to require proof of such
intent). The argument [*138] is grounded not in the
First Amendment but in the Fifth, specifically, in the due
process requirement that any conviction be supported
by evidence of personal guilt. See Scales v. United
States, 367 U.S. 203, 224-25, 81 S. Ct. 1469, 6 L. Ed.
2d 782 (1961). Such a due process concern can arise
when criminal liability is premised on mere membership
in an organization. See id. at 205-06, 224-28 (rejecting
Fifth Amendment challenge to Smith Act, 18 U.S.C. §
2385
(prohibiting
membership
in
organization
advocating overthrow of United States government by
force or violence), because conviction required proof of
knowing and active membership in organization and
intent to contribute to success of specifically illegal
activities).
No such concern arises with respect to § 2339B,
however, because, as we have already observed, that
statute does not prohibit simple membership in a
terrorist organization. Rather, the statute prohibits the
knowing provision of material support to a known
terrorist organization. Proof of such provision (whether
actual, attempted, or conspiratorial) together with the
dual knowledge elements of the statute is sufficient to
satisfy [**22] the personal guilt requirement of due

process.
In sum, Sabir fails to state a claim — much less
demonstrate — that § 2339B is either facially vague in
violation of due process or overbroad in violation of the
First Amendment.
b. Sabir Fails To Demonstrate that § 2339B Is
Unconstitutionally Vague as Applied to his Case
(1) Sabir's Vagueness Claim Is Properly Reviewed as
Applied
In the absence of First Amendment concerns, courts
generally view vagueness challenges to a statute as
applied to the defendant's case. See Chapman v. United
States, 500 U.S. 453, 467, 111 S. Ct. 1919, 114 L. Ed.
2d 524 (1991) ("First Amendment freedoms are not
infringed by [the statute at issue], so the vagueness
claim must be evaluated as the statute is applied.");
accord United States v. Williams, 553 U.S. at 304;
United States v. Rybicki, 354 F.3d at 129-30 (collecting
cases). 9 This preference for as-applied review is
"'[e]mbedded in the traditional rules governing
constitutional
adjudication,'"
notably,
in
"'the
[**23] principle that a person to whom a statute may
constitutionally be applied will not be heard to challenge
that statute on the ground that it may conceivably be
applied unconstitutionally to others, in other situations
not before the Court.'" Parker v. Levy, 417 U.S. 733,
759, 94 S. Ct. 2547, 41 L. Ed. 2d 439 (1974) (quoting
Broadrick v. Oklahoma, 413 U.S. 601, 610, 93 S. Ct.
2908, 37 L. Ed. 2d 830 (1973)). That principle, grounded
in the separation of powers, serves the jurisprudential
maxim that "as between two possible interpretations of a
statute, by one of which it would be unconstitutional and
by the other valid," a court's "plain duty is to adopt that
which will save the Act" enacted by Congress. Blodgett
v. Holden, 275 U.S. 142, 148, 48 S. Ct. 105, 72 L. Ed.
206, 1928-1 C.B. 324 (1927) (Holmes, J.); see Rust v.
Sullivan, 500 U.S. 173, 190, 111 S. Ct. 1759, 114 L. Ed.
2d 233 (1991) (noting courts' "categorical" duty to seek
"every reasonable construction . . . to save a statute
from unconstitutionality" (emphasis in original; internal
quotation marks omitted)).
To the extent the Supreme Court has suggested that a
facial challenge may be maintained against [**24] a
statute that does not reach conduct protected by the
First Amendment, [*139] the identified test is, in fact,

9 In

Holder v. Humanitarian Law Project, the Supreme Court
expressed a preference for as-applied review even where First
Amendment rights are implicated. See 130 S. Ct. at 2719.

Page 6 of 41
22a

634 F.3d 127, *139; 2011 U.S. App. LEXIS 2201, **24
only a variation on as-applied analysis, requiring the
defendant to show "that the law is impermissibly vague
in all of its applications." Village of Hoffman Estates v.
Flipside Hoffman Estates, Inc., 455 U.S. 489, 497, 102
S. Ct. 1186, 71 L. Ed. 2d 362 (1982); accord United
States v. Salerno, 481 U.S. 739, 745, 107 S. Ct. 2095,
95 L. Ed. 2d 697 (1987) (observing that defendant
mounting facial challenge bears heavy burden because
he "must establish that no set of circumstances exists
under which the Act would be valid"). In practice, the
Hoffman Estates/Salerno rule warrants hypothetical
analysis of "all applications" only in cases of preenforcement facial vagueness challenges. See, e.g.,
Richmond Boro Gun Club, Inc. v. City of New York, 97
F.3d 681, 684-86 (2d Cir. 1996). Where, as here, a
defendant has already been convicted for specific
conduct under the challenged law, Hoffman Estates
itself instructs a court confronting a facial challenge to
"examine the complainant's conduct before analyzing
other hypothetical applications." Village of Hoffman
Estates v. Flipside Hoffman Estates, Inc., 455 U.S. at
495.
Accordingly, our review of Sabir's vagueness
[**25] challenge focuses on the application of § 2339B
to the facts of his case. 10
(2) The Standards for As-Applied Review
On as-applied review of the "notice" requirement of due
process, courts ask whether the challenged "statute, as
written, provides notice sufficient to alert 'ordinary
people [as to] what conduct is [**26] prohibited.'"
Arriaga v. Mukasey, 521 F.3d at 224 (quoting Kolender
v. Lawson, 461 U.S. at 357). This test does not demand
"'meticulous specificity'" in the identification of
proscribed conduct. Id. (quoting Grayned v. City of

10 City

of Chicago v. Morales, 527 U.S. 41, 119 S. Ct. 1849,
144 L. Ed. 2d 67 (1999) (declaring local loitering ordinance
unconstitutionally vague on its face), cited by Sabir, warrants
no different approach to his facial vagueness claim. Morales is
distinguishable from this case in that the ordinance there at
issue (1) reached a substantial amount of innocent conduct,
(2) lacked a mens rea requirement to mitigate overbreadth
concerns, and (3) had been interpreted by the state supreme
court in a way that precluded the Supreme Court from
adopting a narrow construction avoiding constitutional
concerns. See id. at 60-64; see also United States v. Rybicki,
354 F.3d at 150-52 (Raggi, J., concurring) (discussing
circumstances in Morales that precluded Hoffman
Estates/Salerno analysis). Because none of these concerns is
here present, we rely on traditional as-applied review in
considering Sabir's vagueness challenge.

Rockford, 408 U.S. 104, 110, 92 S. Ct. 2294, 33 L. Ed.
2d 222 (1972) (noting that such standard would come at
cost of "flexibility and reasonable breadth" (internal
quotation marks omitted))). Rather, it requires only that
the statutory language "'conveys sufficiently definite
warning as to the proscribed conduct when measured
by common understanding and practices.'" Id. (quoting
Jordan v. De George, 341 U.S. 223, 231-32, 71 S. Ct.
703, 95 L. Ed. 886 (1951)).
Similarly, with respect to the due process concern of
arbitrary enforcement, a statute certainly will not be
deemed unconstitutionally vague if "'as a general
matter,'" it "'provides sufficiently clear standards to
eliminate'" such a risk. Id. (quoting Farrell v. Burke, 449
F.3d 470, 494 (2d Cir. 2006)). But even "'in the absence
of such standards,'" a statute will survive an as-applied
vagueness challenge if "'the conduct at issue falls within
the core of the statute's prohibition, so that the
enforcement before the court was not the result of the
unfettered latitude [**27] that law enforcement officers
and factfinders [*140] might have in other, hypothetical
applications of the statute.'" Id. (quoting Farrell v. Burke,
449 F.3d at 494).
Applying these principles to this case, we identify no
unconstitutional vagueness in § 2339B as applied to
Sabir's case.
(3) Sabir's Vagueness Challenge to the Statutory
Proscriptions Fails
Sabir contends that the statutory terms at issue —
"training," "personnel," and "expert assistance and
advice" — are inherently too vague to provide the notice
and direction required by due process. Such a general
complaint is now foreclosed by Holder v. Humanitarian
Law Project. The Supreme Court there observed that
these terms did not require the sort of "untethered,
subjective judgments" that had compelled it to strike
down statutes tying criminal culpability to vague
concepts such as "annoying" or "indecent" conduct. 130
S. Ct. at 2720. The Court identified further protection
against vagueness in Congress's addition of "narrowing
definitions" for these terms, which "increased the[ir]
clarity," as well as in the knowledge element required for
a § 2339B conviction. Id.
Sabir's more specific challenges to the application of
these terms to the [**28] particular facts of his case are
equally meritless.
To the extent Sabir was convicted of conspiring with
Shah to provide "training" — i.e., "instruction or teaching

Page 7 of 41
23a

634 F.3d 127, *140; 2011 U.S. App. LEXIS 2201, **28
designed to impart a specific skill, as opposed to
general knowledge," 18 U.S.C. § 2339A(b)(2) — to a
known terrorist organization, a person of "ordinary
intelligence," Grayned v. City of Rockford, 408 U.S. at
108, would require nothing more than "common
understanding," Jordan v. De George, 341 U.S. at 232,
to recognize that this prohibition plainly encompassed
"martial arts training and instruction for jihadists" serving
al Qaeda, Indictment ¶¶ 1-2. In Holder v. Humanitarian
Law Project, the Supreme Court held that "[a] person of
ordinary intelligence would understand that instruction
on resolving disputes through international law falls
within the statute's definition of 'training' because it
imparts a 'specific skill,' not 'general knowledge.'" 130 S.
Ct. at 2720. That conclusion is even more apparent
here, where the trial evidence showed that the martial
arts training Shah proposed to provide was specific and
deadly and hardly a matter of general knowledge. See,
e.g., GX 814T at 3-4 (recording Shah's explanation of
how [**29] to kill a man by ripping out his throat).
Moreover, al Qaeda's history for using murderous
terrorism in an attempt to intimidate civilian populations
and governments, see 18 U.S.C. § 2331 (defining
terrorism) — particularly American civilians and the
United States government — is so well known that no
reasonable person could doubt that training al Qaeda
members in martial arts is precisely the sort of material
support proscribed by § 2339B, see Arriaga v. Mukasey,
521 F.3d at 224; United States v. Rybicki, 354 F.3d at
129.
We likewise reject Sabir's vagueness challenge to the
term "personnel" as applied to his case. The provision of
personnel is prohibited by § 2339B only when an
individual knowingly provides, attempts to provide, or
conspires to provide a foreign terrorist organization with
one or more individuals, including himself, "to work
under that terrorist organization's direction or control or
to organize, manage, supervise, or otherwise direct [its]
operation." 18 U.S.C. § 2339B(h). Quite apart from
Shah's offer to act as a martial arts trainer for al Qaeda
in that organization's pursuit of jihad, Sabir's offer to
serve as an on-call doctor for the organization, standing
ready [**30] to treat wounded mujahideen in Saudi
Arabia, falls squarely within the core of [*141] this
prohibition, defeating any suggestion either that he
lacked notice that his conduct was unlawful or that the
statute was enforced arbitrarily with respect to him. See
Farrell v. Burke, 449 F.3d at 494; United States v.
Rybicki, 354 F.3d at 129.
In an effort to avoid this conclusion, Sabir argues that
his offer of life-saving medical treatment was simply

consistent with his ethical obligations as a physician and
not reflective of any provision of support for a terrorist
organization. The record does not support this
characterization. Sabir was not prosecuted for
performing routine duties as a hospital emergency room
physician, treating admitted persons who coincidentally
happened to be al Qaeda members. Sabir was
prosecuted for offering to work for al Qaeda as its oncall doctor, available to treat wounded mujahideen who
could not be brought to a hospital precisely because
they would likely have been arrested for terrorist
activities. See GX 906T at 49, 69. In offering this
support for al Qaeda, Sabir did not simply honor his
Hippocratic oath. He swore a further oath of allegiance
to al Qaeda, making [**31] clear that his treatment of
wounded mujahideen would be provided not as an
independent physician but as "one of the soldiers of
Islam," duty bound to obey al Qaeda's leaders, including
Osama bin Laden, and to protect his fellow "brothers on
the path of Jihad" and "on the path of al Qaeda." Id. at
114-16. No reasonable person with a common
understanding of al Qaeda's murderous objectives could
doubt that such material support fell squarely within the
prohibitions of § 2339B. See Holder v. Humanitarian
Law Project, 130 S. Ct. at 2721 (holding that statute
limiting "personnel" to persons working under terrorist
organization's direction or control, rather than
independently, adequately avoided vagueness).
Nor is the statute's prohibition on the provision of
"expert assistance and advice" to terrorist organizations
unconstitutionally vague as applied to Sabir. As the
district court correctly observed, the medical expertise of
a licensed physician plainly constitutes "scientific,
technical or other specialized knowledge" under 18
U.S.C. § 2339A. 11 See United States v. Shah, 474 F.
Supp. 2d at 497 n.5. Indeed, such expertise requires
more specialized knowledge than the instruction in relief
[**32] application that the Supreme Court held
"comfortably" to fall within the scope of "expert advice or
assistance" in Holder v. Humanitarian Law Project, 130
S. Ct. at 2720. Any person of ordinary intelligence would
readily recognize that such expert assistance (well
outside the scope of one's regular hospital duties), with
the stated object of permitting al Qaeda fighters to
advance "on the path of Jihad" is exactly the sort of
material support proscribed by § 2339B. See Arriaga v.
Mukasey, 521 F.3d at 224; United States v. Rybicki, 354
F.3d at 129; cf. Watson v. Geren, 569 F.3d 115, 119,

11 This

definition for the term "expert advice or assistance" is
familiar from Fed. R. Evid. 702, governing expert witnesses.

Page 8 of 41
24a

634 F.3d 127, *141; 2011 U.S. App. LEXIS 2201, **32
134 (2d Cir. 2009) (upholding conscientious objector
claim of doctor who refused to serve in United States
Army based on belief that treating wounded soldiers
would be functional equivalent of weaponizing human
beings).
Further, because Sabir's proffered support, whether
viewed as training, personnel, or expert assistance, fell
so squarely within the core of § 2339B's prohibition, the
application of that law to his conduct cannot have been
the product of arbitrary law enforcement. [**33] See
Farrell v. Burke, 449 F.3d at 494.

[*142] (4) The "Medicine" Exception Does Not Render
§ 2339B Unconstitutionally Vague as Applied to Sabir
Sabir submits that, even if the training, personnel, and
expert assistance provisions of the material support
statute are not unconstitutionally vague as applied to his
case, they are rendered so by vagueness in the
statutory exemption of "medicine" from the definition of
"material support." 18 U.S.C. § 2339A(b)(1); see Oral
Arg. Tr. at 33 (Jan. 17, 2007) ("How is a person of
ordinary intelligence supposed to determine we are
talking about medicine, only medicine, but not the
provision of medical treatment by a doctor?").
The task of interpreting a statute necessarily begins with
its language. See Bailey v. United States, 516 U.S. 137,
144, 116 S. Ct. 501, 133 L. Ed. 2d 472 (1995); United
States v. Awadallah, 349 F.3d 42, 51 (2d Cir. 2003).
Considered in isolation, the word "medicine" can convey
various meanings, including both "a substance or
preparation used in treating disease" 12 and "the
science and art of dealing with the maintenance of
health and the prevention, alleviation, or cure of
disease." Webster's 3d New Int'l Dictionary 1402 (2002);
see also 9 Oxford English Dictionary [**34] 549 (2d ed.
1989) (defining "medicine" as both "[a]ny substance or
preparation used in the treatment of disease" and "[t]hat
department of knowledge and practice which is
concerned with the cure, alleviation, and prevention of
disease in human beings, and with the restoration and
preservation of health"). But we do not look at statutory
language in isolation to determine if it provides
adequate notice of conduct proscribed or permitted.
Rather, we consider language in context, see Bailey v.

12 In

this context, the word "preparation" obviously means "a
substance specially prepared, or made up for its appropriate
use or application, e.g. as food or medicine," not "the action of
preparing." 12 Oxford English Dictionary 374 (2d ed. 1989).

United States, 516 U.S. at 145; see also Robinson v.
Shell Oil Co., 519 U.S. 337, 341, 117 S. Ct. 843, 136 L.
Ed. 2d 808 (1997), and, where appropriate, with the
benefit of canons of statutory construction, see United
States v. Dauray, 215 F.3d 257, 262 (2d Cir. 2000), and
legislative history, see Barenblatt v. United States, 360
U.S. 109, 117, 79 S. Ct. 1081, 3 L. Ed. 2d 1115 (1959)
(relying on "legislative gloss" to reject vagueness
challenge to expansive construction of rule underlying
conviction for contempt of Congress); United States v.
Witkovich, 353 U.S. 194, 199, 77 S. Ct. 779, 1 L. Ed. 2d
765 (1957) (observing that restrictive meaning of
language may be indicated by, inter alia, "persuasive
gloss of legislative history"); United States v. Harriss,
347 U.S. 612, 620, 74 S. Ct. 808, 98 L. Ed. 989 (1954)
(relying in [**35] part on legislative history to construe
statute to avoid vagueness challenge); United States v.
Nadi, 996 F.2d 548, 550 (2d Cir. 1993) (rejecting
vagueness
challenge
where
"common
sense
interpretation of [statutory language at issue] is
confirmed by the statute's legislative history").
The relevant context here starts with § 2339A(b)(1),
which in cataloguing an expansive array of tangibles
and intangibles that can constitute "material support or
resources" notes two exceptions: "medicine or religious
materials." Relevant context also extends to §
2339B(a)(1), the provision making it a crime to "provide"
material support. In the context of a statute focused on
things that might be provided to support a terrorist
organization, "medicine" is reasonably understood as a
substance or preparation rather than as an art or
science. "Providing medicine" is how common usage
refers to the prescription of a substance or preparation
to treat a patient. See, [**36] e.g., Grieveson v. [*143]
Anderson, 538 F.3d 763, 774 (7th Cir. 2008)
(addressing challenge to practice that allegedly
"provide[d] inmates with quantities of medicine" that
could allow them to overdose); El Badrawi v. Dep't of
Homeland Sec., 258 F.R.D. 198, 202 (D. Conn. 2009)
(addressing challenge to alleged failure to "provide"
inmate with medicine); Celia W. Dugger, Nigeria: Help
for Fighting Malaria, N.Y. Times, Oct. 24, 2009, at A8
(discussing organization's announcement to "provide
enough medicine for 56 million malaria treatments");
Gardiner Harris, Institute of Medicine Calls for Doctors
to Stop Taking Gifts from Drug Makers, N.Y. Times, Apr.
29, 2009, at A17 (discussing recommendation that
doctors stop giving free drug samples to patients
"unless the patient was poor and the doctor could
continue to provide the medicine for little or no cost"). By
contrast, "practicing medicine" is how common usage
describes Sabir's proposed activity, i.e., employing the

Page 9 of 41
25a

634 F.3d 127, *143; 2011 U.S. App. LEXIS 2201, **36
art or science of medicine to treat a patient. See, e.g.,
Smith v. Doe, 538 U.S. 84, 112, 123 S. Ct. 1140, 155 L.
Ed. 2d 164 (2003) (Stevens, J., dissenting and
concurring in the judgment) (noting that incompetent
doctor "may not be permitted to practice medicine");
[**37] Planned Parenthood of S Penn. v. Casey, 505
U.S. at 884 (plurality opinion) (noting "practice of
medicine" was "subject to reasonable licensing and
regulation"); Harris v. Mills, 572 F.3d 66, 68-69 (2d Cir.
2009) (affirming dismissal of lawsuit arising from
"revocation of [plaintiff's] license to practice medicine").
Where the word "provide" is used to describe the latter
activity, reference ordinarily is made to "medical care,"
or "medical treatment," rather than to "medicine" alone.
See, e.g., Frew ex rel. Frew v. Hawkins, 540 U.S. 431,
434, 124 S. Ct. 899, 157 L. Ed. 2d 855 (2004) (noting
requirement of Medicaid statute that state "provide
various medical services to eligible children");
Washington v. Harper, 494 U.S. 210, 225-26, 110 S. Ct.
1028, 108 L. Ed. 2d 178 (1990) (describing state's
interest with respect to mentally ill prison inmate "in
providing him with medical treatment for his illness").
Moreover, Congress's intent to have the medicine
exception in § 2339A(b)(1) reach no further than
substances or preparations that might be provided to a
terrorist organization is stated with particular clarity in
the statute's legislative history. The House Conference
Report accompanying the original legislation states that
the word "'[m]edicine' should [**38] be understood to be
limited to the medicine itself, and does not include the
vast array of medical supplies." H.R. Conf. Rep. 105518, at 114 (1996), reprinted in 1996 U.S.C.C.A.N. 944,
947. In drawing this distinction between "the medicine
itself" and "medical supplies," Congress served clear
notice that the medicine exception does not reach "the
outer limits of its definitional possibilities," Dolan v. U.S.
Postal Serv., 546 U.S. 481, 486, 126 S. Ct. 1252, 163 L.
Ed. 2d 1079 (2006), but is confined to medical
substances and preparations.
In short, context, common usage, and legislative history
combine to serve on both individuals and law
enforcement officers the notice required by due process
that the medicine exception identified in § 2339A(b)(1)
shields only those who provide substances qualifying as
medicine to terrorist organizations. Other medical
support, such as volunteering to serve as an on-call
doctor for a terrorist organization, constitutes a provision
of personnel and/or scientific assistance proscribed by
law. See 18 U.S.C. §§ 2339A(b)(1), (3), 2339B(a)(1).
Accordingly, we identify no merit in Sabir's claim that §

2339B is unconstitutionally vague as applied to his
case, and we decline to reverse his conviction [**39] as
violative [*144] of the notice requirement of due
process.
B. The Trial Evidence Was Sufficient To Support Sabir's
Conviction
Sabir contends that the evidence was insufficient to
support his conviction. The rule of constitutional
sufficiency, derived from the Due Process Clause,
instructs that a conviction cannot be obtained "except
upon proof beyond a reasonable doubt of every fact
necessary to constitute the crime . . . charged." In re
Winship, 397 U.S. 358, 364, 90 S. Ct. 1068, 25 L. Ed.
2d 368 (1970); accord United States v. Aguilar, 585
F.3d 652, 656 (2d Cir. 2009). A defendant raising a
sufficiency challenge bears a heavy burden because a
reviewing court must consider the totality of the
evidence in the light most favorable to the prosecution
and uphold the conviction if "any rational trier of fact
could have found the essential elements of the crime
beyond a reasonable doubt." Jackson v. Virginia, 443
U.S. 307, 319, 99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979)
(emphasis in original); accord United States v. Aguilar,
585 F.3d at 656. Applying these principles to Sabir's
case, we reject his sufficiency challenge as without
merit.
1. Count One: Conspiracy
In challenging his conviction for conspiracy to provide
material support to a known terrorist organization,
[**40] Sabir contends principally that the government
failed to prove the existence of an agreement to violate
§ 2339B. We are not persuaded. To convict a defendant
of conspiracy, the government must prove beyond a
reasonable doubt "both the existence of the conspiracy
alleged and the defendant's membership in it." United
States v. Chavez, 549 F.3d 119, 125 (2d Cir. 2008); see
also id. ("The essence of any conspiracy is, of course,
agreement, and in order to establish a conspiracy, the
government must show that two or more persons
entered into a joint enterprise with consciousness of its
general nature and extent."). The trial evidence in this
case easily satisfied these elements.
Testimonial evidence established that Shah and Sabir
had long voiced interest in supporting jihad and
mujahideen. See, e.g., Trial Tr. at 193-96 (reporting
Shah preaching jihad and support for Osama bin Laden
in late 1990s at Poughkeepsie mosque); id. at 287
(recounting Sabir's 2003 conversation with mujahideen
fighter inquiring how Sabir could help with jihad). It is

Page 10 of 41
26a

634 F.3d 127, *144; 2011 U.S. App. LEXIS 2201, **40
against this background that a jury would listen to the
recorded conversation of March 4, 2004, in which Shah
proposed to a federal undercover agent [**41] that
Shah and Sabir — close friends for 25 years — join al
Qaeda as "a pair, me and a doctor," to support that
organization's pursuit of jihad. GX 902T at 23. More
significantly, during the May 20, 2005 meeting at which
Shah and Sabir formally swore allegiance and promised
support to al Qaeda, Shah by providing al Qaeda
members with martial arts training and Sabir by treating
wounded al Qaeda members in Riyadh, see GX 906T at
106-16, Sabir acknowledged that he and Shah had
talked "for a long time" about supporting jihad, id. at
110. Sabir plainly viewed his and Shah's actions at the
May 20 meeting as part of their common agreement.
When Agent Soufan observed that neither man was
obligated to support al Qaeda, Sabir responded that to
fail to do so would be to "abandon[] my brother (Shah)"
with respect to "the very thing we agreed upon . . . in the
first place." Id.
Accordingly, we identify no merit in Sabir's sufficiency
challenge to his conviction for conspiracy to provide
material support to a known terrorist organization.

[*145] 2. Count Two: Attempt
Equally meritless is Sabir's argument that the evidence
was insufficient to support his conviction for attempting
to provide material support [**42] to a known foreign
terrorist organization. A conviction for attempt requires
proof that a defendant (a) had the intent to commit the
object crime and (b) engaged in conduct amounting to a
substantial step towards its commission. See, e.g.,
United States v. Yousef, 327 F.3d 56, 134 (2d Cir.
2003).
a. Intent
Sabir does not challenge the sufficiency of the evidence
establishing his intent to provide material support to a
foreign terrorist organization. Nor could he. 13 In

13 The

intent required to prove attempted material support for a
foreign terrorist organization should not be confused with an
intent to further terrorism. Just as that latter intent is not
required to prove an actual § 2339B violation, see Holder v.
Humanitarian Law Project, 130 S. Ct. at 2717 ("Congress
plainly spoke to the necessary mental state for a violation of §
2339B, and it chose knowledge about the organization's
connection to terrorism, not specific intent to further [**43] the
organization's terrorist activities."), it is not required to prove a
conspiracy or attempt to violate that statute. Nevertheless, in

addition to Sabir's statements already quoted in this
opinion, see supra at [5-6, 21, 27-28], which constitute
powerful evidence of the requisite intent, the following
transcript excerpts from the May 20, 1995 meeting
further support this element.
After Sabir advised that his work in a Riyadh military
hospital would put him in Saudi Arabia for two years,
Agent Soufan stated that Sabir could help al Qaeda
"[a]s a doctor . . . as a Mujahid." GX 906T at 19. Sabir
not only signaled assent, he emphasized a need to "feel
sure within myself that if I make a certain move, that
move is going to be effective." Id. To provide that
assurance, Agent Soufan clarified how a doctor could
be helpful to al Qaeda's pursuit of jihad. He stated that
Osama bin Laden himself had told Soufan that "we need
doctors if they are trusted." Id. at 32. Soufan explained
that "brothers" sometimes get "hurt with a bullet" during
"training" and in "operation[s]." Id. at 48-49. Because
they cannot "go to a hospital," the organization needs
"doctor brothers . . . to protect them . . . [to] keep the
other brothers healthy." Id. at 49. 14 Sabir readily agreed
to provide that support, stating, "Let me [**44] give you
another number," whereupon he supplied his personal
mobile telephone number, which, with Soufan's
assistance, he rendered into code. Id. at 48-50. 15 Sabir
understood [*146] that the purpose of the code was to
conceal the fact that he was working for al Qaeda:
this case, much of the evidence proving Sabir's intent to
provide material support also indicates his intent to further
terrorism.
14 Evidence

of terrorist efforts to recruit doctors was adduced
at trial in United States v. Abu-Jihaad, 630 F.3d 102, 109,
2010 U.S. App. LEXIS 25832, 2010 WL 5140864, at *1 (2d
Cir. 2010) (describing website post soliciting persons to
provide "battlefield medical services" in Afghanistan (internal
quotation marks omitted)).
15 Sabir

had earlier provided Soufan with a contact number in
response to the undercover agent's offer of assistance with
"anything" Sabir might "need" in Saudi Arabia. GX 906T
[**45] at 40. In extending this offer, the undercover made
clear that such assistance would come from mujahideen:
"[W]e have a lot of brothers, thank God, mujahideen . . . .
[T]hey will uh be very happy to assist another brother . . . .
[T]hey still work in their jobs with the government . . . but uh
their hearts and minds are on the right track." Id. at 15 (italics
in transcript reflect translation from Arabic to English). Without
prompting, Sabir stated, "I would like to meet them," proposing
an exchange of contact numbers: "Even if you just give me
one person that I can contact over there, but I can give you
my, my mobile phone over there, the number I can give." Id. at
40.

Page 11 of 41
27a

634 F.3d 127, *146; 2011 U.S. App. LEXIS 2201, **45
Persons who learn the number "may not . . . understand
[its] significance . . . . They may not even recognize it as
a telephone number." Id. at 51. He also understood that
the coded number would be provided to a trusted al
Qaeda operative, who would identify himself as
"Mus'ab" when contacting Sabir on behalf of a wounded
jihadist. Sabir responded to this information, "God
willing." Id. at 87 (italics in transcript reflect translation
from Arabic to English).

suspect's conduct must "carry the project forward within
dangerous proximity to the criminal end to be attained");
Commonwealth v. Peaslee, 177 Mass. 267, 272, 59
N.E. 55, 56 (1901) (Holmes, J.) (recognizing that "some
preparations may amount to an attempt" when they
come "very near to the accomplishment of the act"). By
requiring proof only of a "substantial step" in furtherance
of the intended crime, the Model Code ushered in a
broader view of attempt.

Still later in the conversation, when Agent Soufan
emphasized to Sabir that he could decline to treat
mujahideen if he was not committed to al Qaeda's
goals, Sabir made plain that he had no reservations
about using his medical expertise to support al Qaeda:
"I will [do what]ever I can do for the sake of God. . . .
This is my job . . . the best I can do is to benefit those
people . . . who are striving in the way of Allah . . . .
[T]hese are the ones that are most deserving of the
help." Id. at 66. When Soufan further [**46] stated that it
was difficult to take mujahideen to a hospital for
treatment, Sabir emphasized that his military
identification allowed him to travel freely around Saudi
Arabia, thereby suggesting that he could go to the
injured person. "[I]t's almost like carte blanche. . . . It's
like you can go where you want to go with this . . . . And
anybody that sees it, they don't touch you." Id. at 67.
Later, Soufan sought to confirm this understanding,
stating "[t]hat ID will be very good for you . . . because
you can definitely help mujahideen now," to which Sabir
responded, "Yes, yes." Id. at 69.

This court effectively adopted the Model Code's
formulation of attempt in United States v. Stallworth, 543
F.2d 1038, 1040-41 (2d Cir. 1976). The Stallworth
defendants were arrested when their planned armed
robbery was "in progress" and "[a]ll that stood between
[them] and success was a group of F.B.I. agents and
police officers." Id. at 1041. As such evidence would
have demonstrated attempt even under the common
law, the significance of the case rests not on its facts but
on the court's approving citation [**48] to the Model
[*147] Code's identification of a range of conduct — not
always proximate to the desired criminal end — that
might nevertheless constitute a substantial step when
"strongly corroborative of the firmness of the
defendant's criminal intent." Id. at 1040 & n.5; see also
id. at 1041 (observing that application of Model Code
"emphasizes the importance of a rule [of attempt]
encouraging early police intervention where a suspect is
clearly bent on the commission of crime"). Accord
United States v. Crowley, 318 F.3d 401, 408 (2d Cir.
2003); United States v. Ivic, 700 F.2d at 66. Thus, a
"substantial step" must be "something more than mere
preparation, yet may be less than the last act necessary
before the actual commission of the substantive crime."
United States v. Manley, 632 F.2d 978, 987 (2d Cir.
1980). It is conduct "'planned to culminate'" in the
commission of the substantive crime being attempted.
United States v. Ivic, 700 F.2d at 66 (quoting Model
Penal Code § 5.01(c) (Proposed Official Draft 1962)). 16

With evidence of his intent thus clearly established,
Sabir focuses his sufficiency challenge on the
"substantial step" element of attempt.
b. Substantial Step
(1) The "Substantial Step" Requirement Expands
Attempt Beyond the Common Law
The "substantial step" requirement for attempt derives
from the American Law Institute's Model Penal Code,
which in the early 1960s sought to "widen the ambit of
attempt liability." United States v. Ivic, 700 F.2d 51, 66
(2d Cir. 1983) (Friendly, J.) (citing Model Penal Code §
5.01(1)(c) (Proposed Official Draft 1962)), overruled on
other grounds by National Org. for Women, Inc. v.
Scheidler, 510 U.S. 249, 254-55, 262, 114 S. Ct. 798,
127 L. Ed. 2d 99 (1994). [**47] Previously, at common
law, attempt had been limited to conduct close to the
completion of the intended crime. See generally People
v. Werblow, 241 N.Y. 55, 69, 148 N.E. 786, 789 (1925)
(Cardozo, J.) (holding that, to constitute attempt,

(2) Identifying a Substantial Step by Reference to the
Crime Being Attempted

16 In

Ivic, the court upheld convictions for attempting to bomb
two locations, observing that defendants' inspection of one
bombing site, construction of a fully operational bomb,
[**49] and transportation of the bomb to the vicinity of the
target site satisfied even the common law standard of attempt,
while defendants' discussion and authorization of the second
bombing, examination of the target site, and possession of
explosives satisfied the Model Code standard, albeit barely.
See United States v. Ivic, 700 F.2d at 67

Page 12 of 41
28a

634 F.3d 127, *147; 2011 U.S. App. LEXIS 2201, **49
While the parameters of the substantial step
requirement are simply stated, they do not always
provide bright lines for application. This is not surprising;
the identification of a substantial step, like the
identification of attempt itself, is necessarily a matter "'of
degree,'" United States v. Coplon, 185 F.2d 629, 633
(2d Cir. 1950) (L. Hand, J.) (quoting Commonwealth v.
Peaslee, 177 Mass. at 272, 59 N.E. at 56), that can vary
depending on "'the particular facts of each case'" viewed
in light of the crime charged, United States v. Ivic, 700
F.2d at 66 (quoting United States v. Manley, 632 F.2d at
988)); accord United States v. Crowley, 318 F.3d at 408.
An act that may constitute a substantial step towards
the commission of one crime may not constitute such a
step with respect [**50] to a different crime. See
generally United States v. Ivic, 700 F.2d at 66
(observing that substantial step requirement serves to
ensure that person is convicted for attempt only when
actions manifest "firm disposition" to commit charged
crime). Thus, substantial-step analysis necessarily
begins with a proper understanding of the crime being
attempted.
For example, in United States v. Delvecchio, 816 F.2d
859 (2d Cir. 1987), a case frequently cited as illustrative
of actions insufficient to demonstrate attempt, the
substantive crime at issue was possession of a large
quantity of heroin. We held that a substantial step to
commit that crime was not established by proof that
defendants had met with suppliers, agreed on terms,
and provided their beeper numbers. Such evidence, at
most, established a "verbal agreement," which, "without
more, is insufficient as a matter of law to support an
attempt[ed possession] conviction." Id. at 862. In so
concluding, we noted that what was missing was any
act to effect possession, such as acquisition, or
attempted acquisition, of the purchase money, or travel
to the agreed-on purchase site. See id.
The crime here at issue, however, is of a quite different
[**51] sort. Sabir was charged with attempting to
provide material support for terrorism. Whereas an
attempt to possess focuses on a defendant's efforts
[*148] to acquire, an attempt to provide focuses on his
efforts to supply, a distinction that necessarily informs
an assessment of what conduct will manifest a
substantial step towards the charged objective. Thus,
while an agreement to purchase drugs from a supplier is
not a substantial step sufficient to convict for attempted
possession, see id. at 862, such an agreement to
acquire might constitute a substantial step when the
crime at issue is attempted distribution, see United
States v. Rosa, 11 F.3d 315, 340 (2d Cir. 1993) (holding

evidence insufficient to prove attempted distribution
where defendant "did not produce any heroin for the
proposed sale . . ., and there was no evidence that [he]
ever entered into an agreement with a supplier or made
inquiry of a supplier to obtain heroin for the proposed
sale").
Further important to a substantial-step assessment is an
understanding of the underlying conduct proscribed by
the crime being attempted. The conduct here at issue,
material support to a foreign terrorist organization, is
different from drug [**52] trafficking and any number of
activities (e.g., murder, robbery, fraud) that are
criminally proscribed because they are inherently
harmful. The material support statute criminalizes a
range of conduct that may not be harmful in itself but
that may assist, even indirectly, organizations
committed to pursuing acts of devastating harm. Thus,
as the Supreme Court recently observed, the very focus
of the material support statute is "preventative" in that it
"criminalizes not terrorist attacks themselves, but aid
that makes the attacks more likely to occur." Holder v.
Humanitarian Law Project, 130 S. Ct. at 2728.
Accordingly, while a substantial step to commit a
robbery must be conduct planned clearly to culminate in
that particular harm, a substantial step towards the
provision of material support need not be planned to
culminate in actual terrorist harm, but only in support —
even benign support — for an organization committed to
such harm. See generally id. at 2724 (discussing
Congress's finding that designated foreign terrorist
organizations "'are so tainted by their criminal conduct
that any contribution to such an organization facilitates
that conduct'" (quoting AEDPA § 301(a)(7), 110 Stat. at
1247) [**53] (emphasis in Humanitarian Law Project).
(3) The Evidence Manifests a Substantial Step Towards
the Provision of Material Support in the Form of
Personnel
The indictment charged Sabir with attempting to supply
al Qaeda with material support in three of the forms
proscribed in 18 U.S.C. § 2339A(b)(1): "personnel,
training, and expert advice and assistance." Indictment
¶ 2. 17 We conclude [*149] that the evidence was

17 With

respect to "personnel," Sabir and Shah were alleged to

have
knowingly provided, and attempted to provide, (i) one or
more individuals (including themselves) to work under al
Qaeda's direction and control and to organize, manage,
supervise, and otherwise direct the operation of al
Qaeda.

Page 13 of 41
29a

634 F.3d 127, *149; 2011 U.S. App. LEXIS 2201, **53
sufficient to support Sabir's conviction for attempting to
provide material support in the form of personnel —
specifically, himself — to work for al Qaeda as a doctor
on-call to treat wounded jihadists in Saudi Arabia. See
United States v. McCourty, 562 F.3d 458, 471 (2d Cir.
2009) (recognizing that when theories of liability are
pleaded in conjunctive, defendant may be found guilty
on proof of any one theory); United States v. Masotto,
73 F.3d 1233, 1241 (2d Cir. 1996) (holding evidence
sufficient to affirm if reasonable jury could have
convicted on any theory charged). 18 By coming to meet
Indictment ¶ 2. With respect to "training," Sabir and Shah were
alleged to have
knowingly provided, and attempted to provide, . . . (ii)
instruction and teaching designed to impart a special skill
to further the illegal objectives of al Qaeda.
Id. With respect to "expert advice and assistance," Sabir and
Shah were alleged to have
knowingly provided, and attempted to provide, . . . (iii)
advice and assistance derived from scientific, technical,
and other specialized knowledge to further the illegal
objectives of al Qaeda, to wit, [Shah] provided and
attempted to provide martial arts training and instruction
for jihadists, and [Sabir] provided and [**55] attempted to
provide medical support to wounded jihadists knowing
that al Qaeda has engaged and engages in terrorist
activity . . . and that al Qaeda has engaged and engages
in terrorism.
Id.
While our dissenting colleague submits that the government
consistently focused on the last form of material support
charged, see Dissenting Op., post at [4 n.2], we do not
understand it to have abandoned the first two. Quite the
contrary, the government referenced personnel in summation,
arguing that Sabir "tried to put himself in al Qaeda's back
pocket when he gave [the undercover] his phone numbers."
Trial Tr. at 2374 (explaining further that al Qaeda benefitted by
thus acquiring "an asset that it didn't have before . . . the
telephone number of a doctor . . . willing and able to come to
[its] aid 24 hours a day"). Moreover, the district court charged
the jury as to each of the three forms of material support
alleged in the indictment and their distinct meanings, and
further instructed that proof beyond a reasonable doubt of an
attempt to provide material support in any of these forms was
sufficient to support a guilty verdict. See id. at 2586-87.
18 In

light of this conclusion, we need not discuss [**56] the
sufficiency of the evidence to support Sabir's Count Two
conviction on any other theory. Specifically, we need not
consider the government's argument that Sabir was guilty of
aiding and abetting Shah's attempt to provide material support

with a purported al Qaeda member on May 20, 1995; by
swearing an oath of allegiance to al Qaeda; by
promising to be on call in Saudi Arabia to treat wounded
al Qaeda members; and by providing [**54] private and
work contact numbers for al Qaeda members to reach
him in Saudi Arabia whenever they needed treatment,
Sabir engaged in conduct planned to culminate in his
supplying al Qaeda with personnel, thereby satisfying
the substantial step requirement. 19
(4) The Dissent's Mistaken View of the Substantial Step
Requirement
(a) Sabir Did More Than Express a Radical Idea When
He Produced Himself as a Doctor Sworn To Work
Under the Direction of al Qaeda
In dissent, Chief Judge Dearie asserts that by upholding
Sabir's attempt conviction on the record evidence, we
approve punishing a defendant for radical thoughts
[**57] rather than criminal deeds. See Dissenting Op.,
post at [16]. We do no such thing. Sabir's words and
actions on May 20, 1995, did more than manifest radical
sympathies. See United States v. Crowley, 318 F.3d at
408 (observing that substantial step requirement
ensures that attempt does not punish persons "for their
thoughts alone"). By attending the May 20, 2005
meeting and committing to work under al-Qaeda's
direction and control as an on-call doctor, Sabir
physically produced the very personnel to be provided
as material support for the terrorist organization:
himself. This supplying of the proscribed object is
precisely the sort of substantial [*150] step that was
missing in United States v. Rosa, 11 F.3d at 340
(holding evidence insufficient to support conviction for
attempt to distribute heroin in absence of proof that
defendant ever "produce[d] any heroin" or reached
agreement with heroin supplier to acquire heroin for
planned distribution).
Viewed in this context, Sabir's oath of allegiance to al
to al Qaeda in the form of martial arts training. See Griffin v.
United States, 502 U.S. 46, 56-60, 112 S. Ct. 466, 116 L. Ed.
2d 371 (1991).
19 Judge

Raggi is of the view that, if the circumstances on May
20, 2005, had been as Sabir believed, i.e., if Agent Soufan
had been a member of al Qaeda, the evidence was otherwise
sufficient to support a finding that Sabir actually provided, and
not simply attempted to provide, himself as personnel to work
under the direction of that terrorist organization. The court
does not rule on that question as our rejection of Sabir's
sufficiency challenge to attempt supports affirmance of his
conviction.

Page 14 of 41
30a

634 F.3d 127, *150; 2011 U.S. App. LEXIS 2201, **57
Qaeda evidenced more than "mere membership" in that
terrorist organization. Holder v. Humanitarian Law
Project, 130 S. Ct. at 2719 (holding that § 2339B does
not criminalize "mere membership" [**58] in designated
terrorist organization; it prohibits providing "material
support" to that group). Sabir's purpose in swearing
bayat was to formalize his promise to work as a doctor
under the organization's direction and control. 20 That is
most certainly evidence of a crime: the charged crime of
attempting to provide material support to terrorism in the
form of personnel. See 18 U.S.C. § 2339B(h) (clarifying
that what is proscribed is the provision of personnel "to
work under" the "direction or control" of a terrorist
organization). Further, by providing his contact
numbers, Sabir took a step essential to provide al
Qaeda with personnel in the form of an on-call doctor:
he provided the means by which mujahideen in Riyadh
could reach that doctor at any time, day or night, that
they needed emergency treatment. From the totality of
these facts, a reasonable jury could have concluded that
on May 20, 2005, Sabir crossed the line from simply
professing radical beliefs or joining a radical
organization to attempting a crime, specifically, Sabir's
provision of himself as personnel to work under the
direction and control of al Qaeda.
(b) The Provision of Personnel and the Subsequent
Provision of Expert Services by Such Personnel Are
Distinct Forms of Material Support
Chief Judge Dearie submits that the time and distance
to be traveled by Sabir before he actually provided any
medical treatment to al Qaeda warriors was too great to
permit a jury to find that his actions constituted a
substantial step towards commission of the charged
crime. See Dissenting Op., post at [9, 12]. This
mistakenly equates the provision of personnel to a
terrorist organization with the subsequent provision of
services by that personnel, a misapprehension that
pervades the dissent and informs its conclusion that
Sabir stands guilty "for an offense that he did not
commit." Id. at [20]. While it may frequently be the case
that a defendant who intends to provide a terrorist
[**60] organization with personnel also intends for the

personnel to provide the organization with services, §
2339A(b)(1) specifically recognizes "personnel" and
"services" — particularly services in the form of "expert
advice and assistance," such as medical treatment —
as distinct types of material support. 21 Thus, even if the
provision (or attempted provision) of these two forms of
material support may be simultaneous in some cases, it
may not be in others. For that reason, evidence [*151]
sufficient to demonstrate a substantial step towards the
provision of personnel may not always be sufficient to
demonstrate a substantial step towards the personnel's
provision of services. Whether or not Sabir's May 20,
2005 actions were a substantial step in the provision of
expert medical services to terrorists, we conclude that
they were a substantial step in the provision of Sabir
himself as personnel.
To illustrate, assume that, instead of offering himself as
an on-call doctor to al Qaeda, [**61] Sabir had recruited
a doctor who was, in all respects, identically situated to
himself. Assume further that Sabir then brought that
doctor to a meeting in New York where the doctor swore
allegiance to al Qaeda, promised a supposed al Qaeda
member that he would work as an oncall doctor for the
organization, and gave the member contact numbers so
that wounded jihadists in Saudi Arabia could reach the
doctor when necessary. Even the dissent concedes that
such evidence would be sufficient to prove Sabir "guilty
of attempting to provide personnel," although the
recruited doctor would not provide actual medical
services until some time in the future and after he
traveled from New York to Saudi Arabia. Dissenting Op.,
post at [11]. Because Sabir would be guilty of
attempting to provide personnel in the circumstances
hypothesized, we think it necessarily follows that he is
equally guilty on the record facts. He is guilty of
attempting to provide himself as personnel to al Qaeda
on May 20, 2005, even if he is not yet guilty of
attempting to provide medical services to that
organization.
In concluding otherwise, Chief Judge Dearie submits
that the recruiter in the hypothetical "has done
something. [**62] He has provided a service to the
organization." Id. By contrast, he submits that Sabir "has
done nothing more than conspire." Id. at 12. 22 We

20 Before

Sabir took the oath, Agent Soufan had explained that
[**59] Osama bin Laden and Ayman Zawahiri required a
pledge from all persons proposing to work for al Qaeda to
ensure that the persons "won't be acting on their own," but
following leadership direction. GX 906T at 97-98 (explaining
that everything within al Qaeda was "very, very controlled," but
emphasizing that "nobody is forced" to take the oath; "there is
no coercion in religion").

21 Section

2339A(b)(1) broadly defines "material support or
resources" to mean "any property, tangible or intangible, or
service," of which "personnel" and "expert advice or
assistance," are examples. See supra at [10].
22 Of

course, Sabir could not conspire with the undercover

Page 15 of 41
31a

634 F.3d 127, *151; 2011 U.S. App. LEXIS 2201, **62
disagree. Section 2339B criminalizes providing
personnel through self-recruitment (i.e., volunteering
oneself to serve under the direction of a terrorist
organization) no less than through recruitment (securing
another person to serve under such direction). 23 By
volunteering himself as an on-call doctor for al Qaeda,
Sabir rendered, or attempted to render, that
organization as much of a service in producing
personnel as the recruiter who solicited a doctor for that
purpose. To hold otherwise would be to apply a different
standard of sufficiency to the provision of personnel
depending on whether the person being provided is
oneself or another, a distinction for which there is no
support in a statute that equally proscribes the provision
of oneself or another to work under the direction of a
terrorist organization.
Chief Judge Dearie suggests that a constitutional
concern arises when a defendant is prosecuted for
providing himself rather than a third party as personnel
because in the former circumstance a defendant "'could
be punished for, in effect, providing [himself] to speak
out in support of the program or principles of a
foreign [*152]
terrorist organization, an activity
protected by the First Amendment.'" Dissenting Op.,
post at [10 n.10] (quoting United States v. Stewart, 590
F.3d 93, 118 (2d Cir. 2009) (dictum)). The Supreme
Court, however, has now held otherwise, explaining that
the material support statute leaves persons free to
engage in "independent advocacy," proscribing only
conduct "directed to, coordinated with, or controlled
[**64] by foreign terrorist groups." Holder v.
Humanitarian Law Project, 130 S. Ct. at 2728; see id. at
2721 (observing that § 2339B "makes clear that
'personnel' does not cover independent advocacy"
(emphasis in original)).
Here, there is no question that Sabir was providing
himself to work under the direction and control of al
Qaeda — the jury heard him solemnly swear to do so.
agent. Sabir's conspiracy conviction in this case is supported
by his agreement with co-defendant Shah, an agreement
reached even before the May 20, 2005 meeting.
23 The

fact [**63] that the dictionary defines "personnel" by
reference to a "body of people," see Dissenting Op., post at
[13 n.7] (quoting Oxford English Dictionary), is of no import
here where the relevant statutes, 18 U.S.C. §§ 2339A(b)(1),
2339B, state that "personnel" means "1 or more individuals
who may be or include oneself," see, e.g., Colautti v. Franklin,
439 U.S. 379, 392 n.10, 99 S. Ct. 675, 58 L. Ed. 2d 596 (1979)
(referencing rule of construction that statutory definition
controls meaning of terms).

By dismissing this evidence as "insubstantial" and
"immaterial," and demanding proof of a greater level of
"engagement, activity or compliance" to support
conviction, Dissenting Op., post at [20], our dissenting
colleague persists in conflating the provision of
personnel with the provision of services by that
personnel. While the latter form of material support may
require proof of particular engagement or activity, the
former focuses on submission to the direction and
control of a terrorist organization. 24
The importance of the distinction we draw between the
evidence necessary to prove a defendant's provision of
personnel to a terrorist organization and that personnel's
subsequent provision of services to the organization
reaches beyond this case. Experience teaches that
terrorist organizations frequently recruit persons into
their ranks at times and places removed from any
service they might render. Thus, someone who supplies
suicide bombers or pilots or chemists or doctors or
simple foot soldiers to a terrorist organization may
reasonably be understood to provide the organization

24 Many

of the district court cases cited by the dissent treat
direction and control, not a particular level of activity, as the
critical fact in assessing a provision of personnel charge. See,
e.g., United States v. Taleb-Jedi, 566 F. Supp. 2d 157, 176
(E.D.N.Y. 2008) (rejecting defendant's First Amendment
challenge [**65] to proscription on providing personnel,
observing that statute prohibits person from working under
"terrorist organization's direction or control" no matter how
benign the work); United States v. Lindh, 212 F. Supp. 2d 541,
573 (E.D. Va. 2002) (holding that provision of personnel
requires proof of more than defendant's "mere presence"
among members of terrorist organization: "'Personnel' refers to
individuals who function as employees or quasi-employees —
those who serve under the foreign entity's direction or
control."); see also United States v. Abu-Jihaad, 600 F. Supp.
2d 362, 401 (D. Conn. 2009) (holding that defendants
transmittal of national defense information to publisher linked
to al Qaeda was insufficient to prove defendant's provision of
himself as personnel in absence of evidence as to whether
information was provided in response to publisher's request —
which would permit finding that defendant had provided
himself as personnel — or on defendant's whim — which
would not), aff'd on other grounds,630 F.3d at 144, 2010 U.S.
App. LEXIS 25832, 2010 WL 5140864 at *32; United States v.
Warsame, 537 F. Supp. 2d 1005, 1018 (D. Minn. 2008)
(holding that defendant's participation in an al Qaeda training
camp [**66] — a circumstance where control could easily be
inferred — sufficed to demonstrate provision of himself as
personnel, but mere communications with al Qaeda
associates after return to Canada — a circumstance where
control was not apparent — could not).

Page 16 of 41
32a

634 F.3d 127, *152; 2011 U.S. App. LEXIS 2201, **66
with material support in the form of personnel when the
recruited individuals pledge to work under the direction
of the organization, even though they may not be called
upon to render any particular service for months, years,
or at all. By the same reasoning, when a person
supplies himself as the bomber or pilot or doctor sought
by the terrorist organization, [**67] he provides — or
certainly attempts to provide — material support in the
form of personnel as soon as he pledges to work under
the direction of the organization. In [*153] both
circumstances, the organization acquires an important
asset, reserve personnel, which can facilitate its
planning of future terrorism objectives. See generally
Holder v. Humanitarian Law Project, 130 S. Ct. at 2725
(recognizing that material support not directly furthering
terrorism can be valuable in "free[ing] up other
resources within the organization that may be put to
violent ends"). Thus, even if Sabir needed to return to
Riyadh before he could provide actual medical services
to members of al Qaeda — something he planned to do
within two weeks, see GX906T at 15 — his actions on
May 20, 2005, constituted a substantial step clearly
intended to culminate in supplying himself as personnel
to work under the direction of that terrorist organization.
(c) Upholding Sabir's Attempt Conviction Raises No
Double Jeopardy Concerns
Chief Judge Dearie suggests that if we affirm Sabir's
attempt conviction, a double jeopardy concern arises
with respect to his conspiracy conviction. See
Dissenting Op., post at [15]. 25 We do not [**68] share
this concern, which Sabir himself does not raise. See,
e.g., Norton v. Sam's Club, 145 F.3d 114, 117 (2d Cir.
1998). 26

25 In

raising this concern, our dissenting colleague submits that
"[c]onspiracy charges unaccompanied by a completed
substantive crime are relatively rare, and can be troubling
when the available evidence leaves one to speculate whether
the criminal objective would have been realized." Dissenting
Op., post at [17]. We take exception to this broad
generalization. A sufficiency challenge to a conspiracy
conviction, whether standing alone or together with a
substantive count, requires a review of the evidence in that
particular case. Here, Chief Judge Dearie joins the panel in
unanimously affirming Sabir's conspiracy conviction.
26 Although

Sabir's attorney urged the district court to impose
concurrent sentences, arguing that the conspiracy and
substantive charges against him "are actually encompassed in
the same conduct," Sentencing Tr., Nov. 28, 2007, at 13-14,
this is not a double jeopardy claim, see United States v. Dixon,
509 U.S. 688, 704, 113 S. Ct. 2849, 125 L. Ed. 2d 556 (1993)

An attempt to provide personnel does not require proof
of concerted [**69] action, an essential element of
conspiracy. Moreover, a conspiracy requires only proof
of an agreement to provide personnel, not any
substantial step toward such provision. See, e.g.,
Blockburger v. United States, 284 U.S. 299, 304, 52 S.
Ct. 180, 76 L. Ed. 306 (1932); United States v.
Basciano, 599 F.3d 184, 197-98 (2d Cir. 2010). As we
have already observed, Sabir admitted reaching a
conspiratorial agreement with Shah even before the
May 20, 2005 meeting. But it was only at the meeting
that Sabir took actions — volunteering himself as an oncall doctor for al Qaeda, swearing obedience to that
organization, and providing contact numbers so that al
Qaeda members could call him when they needed
medical treatment — that permitted a reasonable jury to
find a substantial step manifesting Sabir's "firm
disposition" to provide personnel. United States v. Ivic,
700 F.2d at 66. We reject Chief Judge Dearie's
characterization of this conduct as merely passive.
(d) No Government Conduct Precluded a Jury Finding
of a Substantial Step
Insofar as the dissent suggests that Sabir's words or
actions were somehow prompted by the undercover
agent, 27 the [*154] insinuation of entrapment is so
patently unwarranted that Sabir himself waived
[**70] this defense in the district court, precluding its
consideration on appeal. See Trial Tr. at 2387-89; see
also United States v. Quinones, 511 F.3d 289, 321 (2d
Cir. 2007) (discussing true waiver). Even if the dissent
intends to imply something less than entrapment, the
question of whether Sabir's recorded statements on May
20, 2005, were volunteered or solicited, firm or
equivocal, was one of fact to be decided by the jury,
which had the distinct advantage over this court of
hearing both the recording of the May 20 meeting and
Sabir's trial testimony.
Of course, in making its evaluation, the jury presumably

(reversing Grady v. Corbin, 495 U.S. 508, 110 S. Ct. 2084,
109 L. Ed. 2d 548 (1990)).
27 The

dissent submits that Sabir "chanted the mantra of a
terrorist" because he was "led by the government agent and
inspired by his co-defendant." Dissenting Op., post at [17].
What it fails to report is that before Sabir swore bayat, he
detailed his understanding of the oath's "deepest significance,"
GX 906T at 112-13 (discussing historical origin of oath, which
Sabir explained "formed a trust" that could not be achieved in
any "other way . . . because you cannot be complete without
it").

Page 17 of 41
33a

634 F.3d 127, *154; 2011 U.S. App. LEXIS 2201, **70
considered facts elided by the dissent, which show that
Sabir, far from being a gullible mark [**71] for al Qaeda
recruitment, was a highly educated United States
citizen, indeed, a trained scientist. We presume the jury
also considered Sabir's statements that, before meeting
Agent Soufan on May 20, 2005, Sabir had both (1)
reached agreement with Shah that the two men would
provide material support to al Qaeda, see GX 906T at
110, and (2) decided that he could only provide such
support working within his area of expertise as a
physician, see id. at 65-66. In this context, the jury could
reasonably have concluded that Agent Soufan's
statements did not lead Sabir into words and actions
about which he had reservations. Rather, Soufan's
statements served to ensure that when Sabir
volunteered himself as an on-call doctor for al Qaeda
and supplied contact numbers, he did so knowing and
fully intending to provide personnel for the purpose of
treating wounded jihad warriors and not innocent victims
of terrorism.
In sum, we conclude that the totality of the evidence
was more than sufficient to permit a reasonable jury to
find that on May 20, 2005, Sabir took a substantial step
intended to culminate in the provision of himself as
personnel to work under the direction of al Qaeda.
Accordingly, [**72] we uphold his convictions for both
conspiring and attempting to provide material support to
a foreign terrorist organization.
C. The District Court Reasonably Rejected Sabir's
Batson Challenge
Sabir, who is African-American, argues that the
prosecution's use of peremptory challenges to excuse
five African Americans from the jury in his case violated
the Fourteenth Amendment's guarantee of equal
protection as construed by the Supreme Court in Batson
v. Kentucky, 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d
69 (1986). 28 After an extensive inquiry, the district court
rejected this argument, finding that each of the five
challenges was supported by credible nondiscriminatory reasons. Such a ruling "represents a
finding of fact," which we will not disturb in the absence
of clear error. Hernandez v. New York, 500 U.S. 352,
364, 369, 111 S. Ct. 1859, 114 L. Ed. 2d 395 (1991)
(plurality opinion); see United States v. Lee, 549 F.3d
84, 94 (2d Cir. 2008); United States v. Taylor, 92 F.3d
1313, 1326 (2d Cir. 1996). We identify no such error in

28 Four

of the twelve jurors who deliberated in Sabir's case
were African Americans. Of those four, one was excused
before verdict. See Fed. R. Crim. P. 23(b).

this case.
A three-step inquiry guides a district court's evaluation
[**73] of a Batson challenge:
First, a defendant must make a prima facie showing
that a peremptory challenge [*155] has been
exercised on the basis of race; second, if that
showing has been made, the prosecution must offer
a race-neutral basis for striking the juror in
question; and third, in light of the parties'
submissions, the trial court must determine whether
the defendant has shown purposeful discrimination.
Snyder v. Louisiana, 552 U.S. 472, 476-77, 128 S. Ct.
1203, 170 L. Ed. 2d 175 (2008) (internal quotation
marks and brackets omitted). For purposes of this
appeal, we assume that Sabir satisfied the "minimal
burden" of a prima facie showing, Overton v. Newton,
295 F.3d 270, 279 n.10 (2d Cir. 2002), as he could do
by reference to the government's overall exclusion rate
for African-American prospective jurors, see Jones v.
West, 555 F.3d 90, 98-99 (2d Cir. 2009). Nor need we
discuss the second prong of Batson analysis as Sabir
does not — and cannot — contend that the government
failed to proffer reasons for its challenges that were
racially neutral on their face. See generally Hernandez
v. New York, 500 U.S. at 360 (observing that at second
step of Batson analysis, explanation need not be
persuasive; it need only be "based on [**74] something
other than the race of the juror"). Instead, we focus on
Sabir's argument that with respect to three of the five
challenged African Americans — prospective jurors #5,
#26, and #27 — the reasons the government advanced
were "clearly pretextual." Appellant's Br. at 57, 59, 61. 29

29 Because

Sabir does not specifically challenge the district
court's rejection of his Batson argument with respect to the two
other African Americans excused by the prosecution —
prospective jurors #14 and #49 — we deem the point
abandoned. See United States v. Draper, 553 F.3d 174, 179
n.2 (2d Cir. 2009). We nevertheless note that the record does
not support any such challenge. The district court expressly
found that the prosecution was credibly concerned about
these prospective jurors' initially expressed reservations about
certain investigative techniques that were used to gather
evidence in the case, i.e., wiretapping (prospective juror #14)
and the use of confidential informants (prospective juror #49).
Such a credibility finding is entitled to considerable deference
on appeal. See United States v. Lee, 549 F.3d at 94. As the
district court correctly observed, the jurors' professed
willingness [**75] to put their reservations aside meant only
that the prosecution could not secure their removal for cause,
not that it could not retain a credibly race-neutral concern

Page 18 of 41
34a

634 F.3d 127, *155; 2011 U.S. App. LEXIS 2201, **75
Sabir's pretext argument is based largely — though not
exclusively — on the prosecution's purported failure to
apply its proffered race-neutral reasons for excusing
African Americans to similarly situated prospective
jurors of other races or ethnicities. Such inconsistency
can demonstrate a discriminatory intent. See Miller-El v.
Dretke, 545 U.S. 231, 241, 125 S. Ct. 2317, 162 L. Ed.
2d 196 (2005) (observing that "[m]ore powerful than . . .
bare statistics" in evidencing pretext for discrimination
"are side-by-side comparisons of some black venire
panelists who were struck and white panelists allowed
to serve"); United States v. Thomas, 303 F.3d 138, 145
(2d Cir. 2002) ("Support for the notion that there was
purposeful [**76] discrimination in the peremptory
challenge may lie in the similarity between the
characteristics of jurors struck and jurors accepted."
(internal quotation marks omitted)). The record in this
case, however, does not demonstrate sufficient juror
similarity to render clearly erroneous the district court's
rejection of Sabir's Batson claim.

[*156] 1. Prospective Juror #5
The government cited three race-neutral reasons for
excusing prospective juror #5: (1) his failure to secure
appointment to the Boston police force might cause him
to lean against law enforcement; (2) he was somewhat
equivocal about his ability to set aside the view that he
was frequently a victim of race discrimination, see Voir
Dire Tr. at 11 ("I think I can give it the college try and be
as fair as any other person could be."); and (3) his
employment working with autistic children might make
him less sympathetic to prosecution witnesses. In
arguing pretext, Sabir notes that the prosecution
showed no comparable concern for equivocal
responses from other jurors whose backgrounds raised
questions about their impartiality. We need not resolve
the parties' dispute about the relative degrees of
equivocation
in
various
jurors'
responses
[**77] because the district court did not rely on this
second proffered prosecution reason in rejecting Sabir's
Batson challenge. Nor did it rely on the third reason,
which the government does not maintain on appeal.
Instead, the district court found that the prosecution had
credibly demonstrated that it would have excused
supporting the exercise of a non-discriminatory peremptory
challenge. Further, with respect to the prosecution's stated
concern about prospective juror #49's difficulty of
comprehension, the court's acknowledgment that it had itself
observed the difficulty supports its finding that this too was a
credible race-neutral reason for excusing the juror.

prospective juror #5 for the first reason articulated
regardless of race. See generally United States v.
Douglas, 525 F.3d 225, 239 (2d Cir. 2008) (observing
that where prosecution articulates multiple reasons for
peremptory challenge, one of which is race, it must
demonstrate that challenge would have been exercised
for race-neutral reason in any event).
In challenging this conclusion, Sabir suggests that the
lost job opportunity was effectively irrelevant as
prospective juror #5 conceded that he did not satisfy the
residency requirement for appointment. The district
court, however, concluded from its own questioning of
the juror that he manifested "excessive defensiveness"
about the circumstances relating to his failure to secure
the police appointment, which provided the government
with a credible race-neutral basis for concern about his
ability to be impartial toward [**78] law enforcement
officials. Voir Dire Tr. at 123. This finding turned largely
on the district court's assessment of the juror's
demeanor and credibility, a matter "peculiarly within [its]
province," Snyder v. Louisiana, 552 U.S. at 477 (internal
quotation marks omitted), to which we accord "great
deference," United States v. Lee, 549 F.3d at 94.
Accordingly, we conclude that Sabir has failed to identify
clear error in the district court's rejection of his Batson
challenge with respect to prospective juror #5.
2. Prospective Juror #26
The government advanced four reasons for excusing
prospective juror #26: (1) her work as a home health
aide might cause her to sympathize with Sabir, a
physician; (2) her friend's daughter's marriage to a man
from Yemen might also make her sympathetic to Sabir's
circumstances; (3) her purportedly disheveled
appearance and lack of focus in responding to
questions raised attentiveness concerns; and (4) her
regular viewing of three "CSI" television shows might
lead her to have unrealistic expectations as to the
prosecution's ability to produce technical and scientific
evidence of guilt in every case. 30 While the district court
did
not
agree
with
the
prosecution's
[**79] characterization of the prospective juror's
appearance, it found [*157] the other identified
concerns, including the juror's lack of focus, to constitute

30 "CSI:

Crime Scene Investigation," along with "CSI: Miami"
and "CSI: NY," are a trio of popular television series about
fictitious teams of forensic investigators who solve crimes by
applying science and technology to the review of physical
evidence.
See
"CSI:
Crime
Scene
Investigation,"
http://www.cbs.com/primetime/csi/.

Page 19 of 41
35a

634 F.3d 127, *157; 2011 U.S. App. LEXIS 2201, **79
credible race-neutral grounds for the prosecution's
exercise of a peremptory challenge.
In maintaining his claim of pretext on appeal, Sabir
observes that the prosecution did not excuse nonAfrican American venirepersons who worked in health
care, notably prospective juror #19, who worked in a
veterans' hospital. Nor did it excuse non-African
Americans with ties to Muslims, such as prospective
juror #69, who had dated a Muslim. The argument
ignores the fact that neither of these prospective jurors
demonstrated the range of concerns presented by
prospective juror #26. 31 Certainly, neither presented a
focus concern. As to prospective juror #26, the district
court expressly found that she had "a more distracted
attitude" than [**80] other members of the venire, which
she manifested by persistently "looking over toward her
left during the questioning." Voir Dire Tr. at 129. We
defer to the district court's considerable voir dire
experience in making demeanor observations, see
Snyder v. Louisiana, 552 U.S. at 477, and we note that
such distractedness is, by itself, a sufficient race-neutral
ground to support exercise of a peremptory challenge,
see generally Brown v. Kelly, 973 F.2d 116, 121 (2d Cir.
1992) ("An impression of the conduct and demeanor of
the prospective juror during the voir dire may provide a
legitimate basis for the exercise of a peremptory
challenge.").
Accordingly, we identify no clear error in the district
court's rejection of Sabir's Batson challenge with respect
to prospective juror #26.
3. Prospective Juror #27
The prosecution offered two race-neutral reasons for
excusing prospective juror #27: (1) the person's thirtyyear career in the New York City Department of Social

31 Because

Sabir challenges the prosecution's professed
concern about prospective juror #26's possible link to a person
from Yemen only on pretext grounds (based on dissimilar
treatment of another juror), and because other concerns about
#26 defeat the pretext claim, we need not here decide under
what circumstances a prospective juror's association with a
person of a particular nationality may warrant further inquiry to
ensure impartiality. See generally United States v. Douglas,
525 F.3d at 241 (noting that "this Court has not decided the
issue of [**81] whether national origin is a cognizable
classification for Batson protection" (internal quotation marks
omitted)); cf. United States v. Stewart, 65 F.3d 918, 925 (11th
Cir. 1995) (including "subject matter of case being tried"
among "relevant circumstances" appropriate for consideration
in evaluating Batson challenge).

Services might cause him to be sympathetic to persons
in difficult straits as well as more skeptical of
government authority, and (2) his frequent television
viewing of the three "CSI" television shows might make
him reluctant to convict in the absence of scientific
evidence. See Voir Dire Tr. at 131.
In Messiah v. Duncan, 435 F.3d 186 (2d Cir. 2006), we
observed that "[i]t is not implausible" for a prosecutor to
think that "a social service provider who has dedicated
his professional life to helping others might have more
sympathy for a defendant" [**82] than other prospective
jurors. Id. at 200. That conclusion, like many others
informing peremptory challenges, may be based on a
group stereotype, but not one that violates equal
protection. Cf. J.E.B. v. Alabama ex rel. T.B., 511 U.S.
127, 142 n.14, 114 S. Ct. 1419, 128 L. Ed. 2d 89 (1994)
(distinguishing peremptory challenges based on race
from those based on occupation).
Similarly, it was plausible for the prosecutor to think that
a juror who regularly watched television shows in which
forensic science [*158] conclusively solved crimes
might be more inclined to demand such evidence in
order to convict. See United States v. Fields, 483 F.3d
313, 355 n.39 (5th Cir. 2007) (observing that claim that
"CSI" shows cause jurors to demand scientific evidence
was "plausible" even though not "proven empirically").
The district court having found the prosecution credible
in its profession of these concerns with respect to
prospective juror #27, we identify no clear error in its
rejection of Sabir's Batson argument with respect to the
exercise of this peremptory challenge.
In sum, we reject Sabir's equal protection challenge to
his conviction as without merit.
D. Sabir's Evidentiary Challenges Are Uniformly Without
Merit
Sabir asserts that [**83] his conviction is infected by a
host of evidentiary errors pertaining to (1) the receipt of
expert testimony, see Fed. R. Evid. 702; (2) the receipt
of hearsay statements by Shah, see U.S. Const. amend.
VI; Fed. R. Evid. 801(d)(2)(E); (3) the exclusion of a
prior inconsistent statement by a prosecution witness,
see Fed. R. Evid. 801(d)(1)(A); (4) the exclusion of
evidence of defendant's state of mind, see Fed. R. Evid.
803(3); and (5) the receipt of myriad evidence that was
more prejudicial than probative, see Fed. R. Evid. 403.
1. Expert Witness Testimony
Sabir challenges the district court's decision, supported

Page 20 of 41
36a

634 F.3d 127, *158; 2011 U.S. App. LEXIS 2201, **83
by a detailed written opinion, to allow Evan Kohlmann to
testify as an expert witness about al Qaeda and Azzam
Publications, the publisher of a jihadist videotape
offered in the prosecution's direct case. See United
States v. Sabir, No. 05 Cr. 673 (LAP), 2007 U.S. Dist.
LEXIS 34372, 2007 WL 1373184 (S.D.N.Y. May 10,
2007).
The admission of expert testimony is governed by Fed.
R. Evid. 702, which states as follows:
If scientific, technical, or other specialized
knowledge will assist the trier of fact to understand
the evidence or to determine a fact in issue, a
witness qualified as an expert by knowledge,
[**84] skill, experience, training, or education, may
testify thereto in the form of an opinion or
otherwise, if (1) the testimony is based upon
sufficient facts or data, (2) the testimony is the
product of reliable principles and methods, and (3)
the witness has applied the principles and methods
reliably to the facts of the case.
The law assigns district courts a "gatekeeping" role in
ensuring that expert testimony satisfies the
requirements of Rule 702. Kumho Tire Co. v.
Carmichael, 526 U.S. 137, 152, 119 S. Ct. 1167, 143 L.
Ed. 2d 238 (1999); see Daubert v. Merrell Dow Pharms.,
Inc., 509 U.S. 579, 593-94, 113 S. Ct. 2786, 125 L. Ed.
2d 469 (1993) (articulating non-exhaustive list of criteria
court may apply in performing gatekeeping function).
The inquiry is "a flexible one," Daubert v. Merrell Dow
Pharms., Inc., 509 U.S. at 594, and district courts enjoy
considerable discretion in deciding on the admissibility
of expert testimony, see Kumho Tire Co. v. Carmichael,
526 U.S. at 152. We will not disturb a ruling respecting
expert testimony absent a showing of manifest error,
see Zerega Ave. Realty Corp. v. Hornbeck Offshore
Transp., LLC, 571 F.3d 206, 213 (2d Cir. 2009), which is
not present here.
a. Kohlmann's Testimony Satisfied the Enumerated
Requirements [**85] of Rule 702
Sabir contends that Kohlmann's testimony satisfied
none of the three enumerated requirements of Rule 702.
We disagree.

terrorism and al Qaeda, "Globalterroralert.com" and the
Investigative Project; (3) his authorship of various
academic papers and a book on al Qaeda; (4) his
provision of consulting services on terrorism and al
Qaeda to various federal agencies; and (5) his ongoing
efforts to collect, analyze, and catalogue written, audio,
and visual materials relevant to terrorism generally and
al Qaeda in particular, including the records of guilty
pleas and confessions from admitted al Qaeda
operatives.
Before admitting Kohlmann's testimony, the district court
also considered — without objection from the parties —
the record of a Daubert hearing in another case in which
Kohlmann was proffered as a terrorism expert. The
evidence adduced at that hearing permitted the trial
judge [**86] to conclude that Kohlmann's work had
undergone "'various forms of peer review,'" that his
opinions were "'generally accepted within the relevant
community,'" and that his methodology was "'similar to
that employed by experts that have been permitted to
testify in other federal cases involving terrorist
organizations.'" United States v. Sabir, 2007 U.S. Dist.
LEXIS 34372, 2007 WL 1373184, at *8 (quoting United
States v. Paracha, No. 03 Cr. 1197 (SHS), 2006 U.S.
Dist. LEXIS 1, 2006 WL 12768, at *20 (S.D.N.Y. Jan. 3,
2006)). 32
On this record, we conclude that the district court acted
well within its discretion in concluding that Kohlmann's
testimony satisfied the enumerated requirements of
Rule 702. 33
b. Kohlmann's Testimony Was Helpful to the Jury
Sabir submits that, even if Kohlmann properly qualified

32 Kohlmann

has, in fact, been qualified as an expert on al
Qaeda and terrorism in a number of federal prosecutions. See,
e.g., United States v. Benkahla, 530 F.3d 300, 309 n.2 (4th
Cir. 2008); United States v. Aref, 285 F. App'x 784, 792 (2d
Cir. 2008); United States v. Abu-Jihaad, 600 F. Supp. 2d 362,
366 (D. Conn. 2009); United States v. Kassir, No. 04 Cr. 356
(JPK), 2009 U.S. Dist. LEXIS 28837, 2009 WL 910767, at *7
(S.D.N.Y. Apr. 2, 2009).
33 To

Kohlmann's proposed expert testimony had a
considerable factual basis: (1) his graduate studies at
Georgetown University's [*159] School of Foreign
Service and Center for Contemporary Arab Studies and
at the University of Pennsylvania Law School; (2) his full
time employment at two organizations focusing on

the extent Sabir challenges Kohlmann's testimony about
al Qaeda's terrorist activities in Saudi Arabia on the ground
that the [**87] government offered no evidence of Sabir's
specific awareness of these activities, the argument bears
more on the comparative relevance/prejudice inquiry identified
in Rule 403 than on the requirements stated in Rule 702. We
discuss the relevancy of this part of Kohlmann's testimony
infra at Part II.D.1.c.

Page 21 of 41
37a

634 F.3d 127, *159; 2011 U.S. App. LEXIS 2201, **87
as an expert, his testimony about al Qaeda's history and
structure was not helpful because jurors' familiarity with
al Qaeda and its leader, Osama bin Laden, could be
presumed. The argument requires little discussion. We
have approved the use of expert testimony to provide
juries with background on criminal organizations,
notably organized crime families. See, e.g., United
States v. Matera, 489 F.3d 115, 121-22 (2d Cir. 2007).
As we explained in United States v. Amuso, 21 F.3d
1251 (2d Cir. 1994):
[d]espite the prevalence of organized crime stories
in the news and popular media, these topics remain
proper subjects for expert testimony. Aside from the
probability that the depiction of organized crime in
movies and television is misleading, the fact
remains that the operational methods [**88] of
organized crime families are still beyond the
knowledge of the average citizen.
Id. at 1264. The rationale applies with equal force to
terrorist organizations, including al Qaeda.
c. Kohlmann's Testimony Was Relevant
Sabir's relevancy challenge to certain aspects of
Kohlmann's testimony is equally [*160] unavailing. See
Fed. R. Evid. 401, 403. To the extent Sabir submits that
Kohlmann's testimony about terrorist activities in Saudi
Arabia — derived in part from Internet sources — was
too speculative to be probative, he misses the point of
that testimony. The issue for jury consideration was not
whether the government could prove that al Qaeda was,
in fact, responsible, for particular terrorist acts in Saudi
Arabia, but whether it could reasonably be inferred that
a person such as Sabir, who had lived in Saudi Arabia
for a year, and who proposed to support al Qaeda's
efforts there by serving as the organization's on-call
doctor, would know that he was providing support to an
organization that engaged in terrorism. Kohlmann's
testimony as to generally available information about al
Qaeda's terrorist activities in Saudi Arabia was more
probative than prejudicial on this knowledge element of
§ 2339B. [**89] The prosecution's failure to adduce
specific evidence of Sabir's familiarity with the
information went to the weight of Kohlmann's testimony
rather than to its admissibility.
We similarly reject Sabir's relevance challenge to
Kohlmann's testimony about al Qaeda training camps.
Such testimony was plainly relevant to mens rea as
Sabir was charged both with conspiring with Shah to
provide martial arts training to mujahideen and with
agreeing to be on call to treat wounded mujahideen who

sustained injuries either "in training" or in actual al
Qaeda "operation[s]." GX 906T at 48.
d. Kohlmann's Testimony Did Not Reach Beyond the
Government's Rule 16 Proffer
Sabir faults the district court for allowing Kohlmann to
testify beyond the scope of the government's proffer.
See Fed. R. Crim. P. 16(a)(1)(G). The claim is patently
meritless. The testimony about which Sabir complains,
relating to "Islam, fatwa, and the 9/11 attacks,"
Appellant's Br. at 72, easily fell within the government's
broad proffer, outlined in a February 23, 2007 letter, to
present evidence about al Qaeda's "origins," "history,"
"structure," "leadership," "instructional methods,"
"operational logistics," and "acts of terrorism,"
[**90] United States v. Sabir, 2007 U.S. Dist. LEXIS
34372, 2007 WL 1373184, at *2 & n.5 (quoting
government proffer letter). Similarly meritless is Sabir's
challenge to Kohlmann's expertise to discuss "Islam,
fatwa, and the 9/11 attacks," to the limited extent of
providing background on al Qaeda. Even if Kohlmann
had testified beyond the government's Rule 16 proffer
— which he did not — Sabir fails to show the "violation
of a substantial right," the standard necessary to secure
reversal for such an evidentiary error. United States v.
Ebbers, 458 F.3d 110, 122 (2d Cir. 2006).
2. Co-Conspirator Statements
Sabir contends that the admission of tape recorded
conversations between co-defendant Shah and
confidential informant Saeed or undercover Agent
Soufan violated both Fed. R. Evid. 801(d)(2)(E) and the
Sixth Amendment's Confrontation Clause as construed
by the Supreme Court in Crawford v. Washington, 541
U.S. 36, 124 S. Ct. 1354, 158 L. Ed. 2d 177 (2004). 34
Neither argument is persuasive.
a. Shah's Recorded Conversations with the Informant
and the Undercover [**91] Were Admissible Under Fed.
R. Evid. 801(d)(2)(E)
We review the district court's decision to admit Shah's
recorded conversations as co-conspirator [*161]
statements under Fed. R. Evid. 801(d)(2)(E) only for
clear error. See United States v. Al-Moayad, 545 F.3d
139, 173 (2d Cir. 2008). In urging such error, Sabir
submits that the recordings were inadmissible because

34 While

Sabir only references Shah's recorded conversations
with the informant in mounting this challenge, we understand
the argument also to reach Shah's recorded conversations
with the undercover agent.

Page 22 of 41
38a

634 F.3d 127, *161; 2011 U.S. App. LEXIS 2201, **91
he did not participate in the conversations at issue and
was not mentioned in the course thereof. The argument
is flawed in two respects. First, it misstates the facts.
Shah's recorded conversations with Saeed and Soufan
repeatedly referenced Sabir both by his first name
"Rafiq," see, e.g., GX 801T at 1; GX 812T at 1, and by
his profession as a "doctor," see, e.g., GX 807T at 3;
GX 902T at 23-24. Second, and more important, it
misstates the standard for admissibility under Rule
801(d)(2)(E).
Rule 801(d)(2)(E) states that out-of-court declarations
are not excludable as hearsay if they are made "by a coconspirator of a party during the course and in
furtherance of the conspiracy." To admit an out-of-court
declaration under this rule, the district court must find by
a preponderance of the evidence "(a) that there was a
conspiracy, (b) [**92] that its members included the
declarant and the party against whom the statement is
offered, and (c) that the statement was made during the
course of and in furtherance of the conspiracy." United
States v. Al-Moayad, 545 F.3d at 173 (internal quotation
marks omitted); see also Bourjaily v. United States, 483
U.S. 171, 175-76, 107 S. Ct. 2775, 97 L. Ed. 2d 144
(1987). Where, as here, Shah and Sabir are the only
alleged conspirators, the district court was required to
find that Shah made the statements at issue in
furtherance of a then-existing conspiracy between these
two men. 35 Such a finding was amply supported by the
recorded statements of both defendants. See Bourjaily
v. United States, 483 U.S. at 175-76; United States v.
Tellier, 83 F.3d 578, 580 (2d Cir. 1996) (observing that
hearsay statements may themselves be considered in
determining admissibility under Rule 801(d)(2)(E),
provided there is some independent corroboration of
defendant's participation in conspiracy).
At the very start of his first recorded meeting with

35 Where

statements are made in the course of an existing
conspiracy in which the defendant later joins, those
statements may be admitted against him, even though he was
not a member of the conspiracy at the time the statements
were made, on the theory [**93] that he "assumes the risk for
what has already happened" in the scheme. 5 Jack B.
Weinstein & Margaret A. Berger, Weinstein's Federal
Evidence § 801.34[4][a], at 801-84 (Joseph M. McLaughlin
ed., 2d ed. 2007) ("Statements made before a conspiracy was
actually formed fall outside the realm of Rule 801(d)(2)(E).");
see also United States v. Badalamenti, 794 F.2d 821, 828 (2d
Cir. 1986) (holding that statements of co-conspirators were
admissible against defendant under Rule 801(d)(2)(E), "even if
made before he joined the conspiracy").

Saeed, on September 20, 2003, Shah identified "Rafiq"
as his "partner," a term implying some agreement
between the two men to pursue a common objective.
GX 801T at 1 (explaining that "me and Rafiq are real
tight" and "you always would see me with Rafiq"); see
Trial Tr. at 600. Shah made plain that the partnership
extended to Shah's martial arts efforts, explaining that
Sabir owned the building in Harlem where Shah
operated his martial arts training center. See id.
Thereafter, in recorded conversations with Saeed and
Agent Soufan about joining al Qaeda, Shah repeatedly
emphasized his partnership with Sabir [**94] and
indicated that the two men would come to the terrorist
organization as a "package . . . me and a doctor." GX
807T at 3-4; see GX 902T at 23 (stating "I come like
with a pair, me and a doctor"). Shah explained that he
knew Sabir's intentions and did not need to speak
further with him to make this [*162] commitment, a
statement suggestive of an existing agreement between
the two men. See GX 902T at 23.
Moreover, on May 20, 2005, when Sabir met with Agent
Soufan, he provided independent and explicit
confirmation for what Shah had been saying to the
informant and undercover agent: that Sabir and Shah
had long discussed and agreed to support terrorists'
pursuit of jihad.
UC: And, I'm, I will offer you that [the oath of
allegiance to al Qaeda], brother, but it is up to you.
SABIR: So, you know this brother [Shah] here and
I, I think, we have, I have to go with my brother
because we have, we have talked about this for a
long time, and because we have talked about it a
long time, I feel it, uh, uh, not just that my spirit is
with it, . . . but that if I didn't do it I will be
abandoning my brother. And the very thing we
agreed upon it in the first place. . . . [W]e are
partners.
GX 906T at 110 (emphasis [**95] added). 36

36 Elsewhere

in the May 20, 2005 conversation, Sabir revealed
how the men reached this agreement to support terrorism in
the late 1990s. Sabir explained that he and Shah had
originally planned to travel to Afghanistan to assist the
mujahideen. See GX 906T at 17 ("That was an aspiration, that
was a hope, a dream that we had to go move to the
mountains."). This statement comported with Shah's earlier
remark to Agent Soufan that, as early as 1998, the two men
had "really wanted to get over to Afghanistan," where they
wanted to "be right in it." GX 902T at 5. Sabir explained that
he "never . . . made . . . any definite move" with respect to

Page 23 of 41
39a

634 F.3d 127, *162; 2011 U.S. App. LEXIS 2201, **95
This record plainly supports the district court's finding
that, as of the time of the first recorded conversation at
issue in 2003, Shah and Sabir had already reached a
tacit understanding to use their respective professional
expertise to support jihad, [**96] and that Shah's
statements before the May 20, 2005 meeting, like
Sabir's statements at that meeting, were made in
furtherance of that agreement.
Sabir submits further that Shah's recorded statements
were inadmissible under Rule 801(d)(2)(E) because
they were not made in furtherance of the conspiracy, but
instead were "idle chatter." United States v. Paone, 782
F.2d 386, 390 (2d Cir. 1986). We are not persuaded.
Shah was plainly seeking to persuade someone whom
he thought could admit him to al Qaeda that he and
Sabir were trustworthy and would, in fact, provide
material assistance to that organization. That Shah's
statements were sometimes vague and rambling does
not alter the fact that, in their entirety, they were made in
furtherance of an agreement with Sabir to provide
material support for terrorism. In any event, Sabir does
not show that any possible digressions from the
conspiratorial purpose in Shah's statements were
prejudicial. See United States v. Mercado, 573 F.3d
138, 141 (2d Cir. 2009).
b. The Admission of Shah's Statements Did Not Violate
Sabir's Right to Confrontation
Sabir's reliance on Crawford v. Washington, 541 U.S.
36, 124 S. Ct. 1354, 158 L. Ed. 2d 177, to mount a
Confrontation Clause challenge to the [**97] receipt of
Shah's statements is foreclosed by United States v.
Saget, 377 F.3d 223 (2d Cir. 2004), in which this court
held that "a declarant's statements to a confidential
informant, whose true status is unknown to the
declarant, do not constitute testimony within the
meaning of Crawford," id. at 229. As [*163] then-Judge
Sotomayor explained in writing for the Saget panel,
Crawford instructs that the critical factor in identifying a
Confrontation Clause concern is "the declarant's
awareness or expectation that his or her statements
may later be used at a trial." Id. at 228. Here, there is no
question that in his conversations with Saeed and
Soufan, Shah was unaware that he was speaking to
agents for the government or that his statements might
later be used at a trial. Because Shah's recorded
Afghanistan because he "did not see a clear way" to provide
assistance. GX 906T at 17-18. Sabir stated that it was in the
late 1990s, when the men were experiencing problems at a
Bronx mosque, that they recognized the advantage of "people
working within their expertise" in aid of jihad. Id. at 65.

statements are thus not testimonial in nature, this case
is on all fours with Saget, and Sabir's Confrontation
Clause challenge fails. See also United States v. Logan,
419 F.3d 172, 178 (2d Cir. 2005) ("In general,
statements of co-conspirators in furtherance of a
conspiracy are non-testimonial.").
3. Prior Inconsistent Statement
Prosecution witness Tony Richardson testified that while
participating in [**98] Shah's martial arts classes in
Maryland, he met a doctor introduced to him as "Dr.
Sabir or Sabir Rafiq or Rafiq Sabir" with whom he spoke
briefly. Trial Tr. at 230-31. 37 Asked on crossexamination if he was positive as to the name,
Richardson answered "No, not positive. I don't even
remember his name totally. It was Dr. Sabir Rafiq or
Rafiq Sabir, something to that effect." Id. at 232.
Defense counsel then sought to impeach Richardson by
reading aloud from grand jury testimony in which
Richardson ascribed the name Rafiq Sabir or Sabir
Rafiq to a friend in Texas.
Q. [Do you know] Rafiq Sabir?
A. Do not — Sabir Rafiq.
Q. Rafiq Sabir. Do you know a Sabir Rafiq?
A. My friend in Texas, which I don't think he knows
Mahmud at all. I think his middle name is Rafiq
Sabir, Sabir Rafiq, I'm not sure.
Id. at 235. The district court overruled the prosecution's
objection to this line of questioning, but did not permit
Sabir to offer the grand jury testimony into evidence as
a prior inconsistent statement under Fed. R. Evid.
801(d)(1)(A). Sabir submits that the latter ruling was
erroneous. We identify no abuse of discretion, much
less violation of a substantial right, in the district court's
decision. [**99] See United States v. Bah, 574 F.3d
106, 116 (2d Cir. 2009); United States v. Mercado, 573
F.3d at 141.
Rule 801(d)(1) of the Federal Rules of Evidence states
that an out-of-court statement is not hearsay if "[t]he
declarant testifies at the trial . . . and is subject to crossexamination concerning the statement, and the
statement is . . . inconsistent with the declarant's
testimony, and was given under oath subject to the
penalty of perjury . . . ." Richardson's grand jury
testimony indicating that he had a friend in Texas whose
"middle name is Rafiq Sabir [or] Sabir Rafiq," was not,
strictly speaking, inconsistent with his trial testimony that

37 Richardson

made no in-court identification of Sabir as the
person to whom he was introduced.

Page 24 of 41
40a

634 F.3d 127, *163; 2011 U.S. App. LEXIS 2201, **99
the doctor whom he briefly met at Shah's martial arts
class was named "Dr. Sabir or Sabir Rafiq or Rafiq
Sabir." As the district court correctly observed, if
Richardson had given a negative answer at trial to a
question about knowing anyone else named Sabir
beside this doctor, then the grand jury testimony might
have presented an inconsistency. But no such question
was ever asked.
In any event, Sabir can hardly demonstrate that he was
prejudiced by the [**100] district court ruling. The grand
jury testimony [*164] was not relevant for its truth, i.e.,
whether Richardson in fact had a friend in Texas, part of
whose name was Rafiq Sabir or Sabir Rafiq. Rather, it
was relevant for the fact that, when asked if he
recognized the name Rafiq Sabir, Richardson did not
mention any doctor whom he met with Shah, but only a
friend in Texas. This fact was adequately placed before
the jury by Richardson's acknowledgment of the grand
jury statement. It did not require actual admission of the
grand jury record.
4. State-of-Mind Evidence
Sabir submits that the district court erred in refusing to
admit statements he made to federal authorities on
October 5, 2004, when entering the United States from
Saudi Arabia. According to a contemporaneous FBI
report, see Appellee's Br. Add. 1-3, these statements
recounted
Sabir's
personal,
educational,
and
employment background; the circumstances prompting
his move from the United States to Saudi Arabia; his
personal and professional activities in Saudi Arabia; his
financial support for various causes; his appreciation for
life in the United States compared to Saudi Arabia; and
his intent to return to live in the United States [**101] at
some unspecified future time and to "make things
better" in this country. In one statement, Sabir professed
not to condone suicide bombing. Sabir submits that
these statements were admissible because they
evidenced a state of mind not disposed to provide
material support to al Qaeda.
We note that both before the district court and on appeal
Sabir presented this argument in a conclusory fashion.
The one-paragraph argument in his appellate brief does
not cite — much less discuss — the relevant rule, see
Fed. R. Evid. 803(3), or our precedents construing its
scope, see, e.g., United States v. Cardascia, 951 F.2d
474 (2d Cir. 1991); United States v. DiMaria, 727 F.2d
265 (2d Cir. 1984) (Friendly, J.). No matter. Even if
Sabir could demonstrate that his October 5, 2004
statements were admissible under Rule 803(3), a point
we need not here decide, we would not grant him a new

trial because any error was plainly harmless.
Sabir testified at length about his views regarding the
United States, al Qaeda, and its methods. See, e.g.,
Trial Tr. at 1491 (testimony of Sabir that "[s]uicide is
wrong in all circumstances in Islam"). Further, he was
permitted to introduce into evidence a document he
[**102] wrote in February 2005, which described his
vision for an "Islamic Justice Organization" dedicated to
"ensur[ing] justice for Muslims" by lawful means. See id.
at 1554, 1558. The government's contrary evidence of
Sabir's intent to commit the charged crimes, however,
was clearly overwhelming. The tape recorded meeting
of May 20, 2005, supra at [5-6, 21, 27-31], reveals Sabir
swearing loyalty to support the terrorist organization by
providing medical treatment for its wounded combatants
in Saudi Arabia. On this record, we easily conclude that
the exclusion of Sabir's October 5, 2004 statements was
harmless. See United States v. Song, 436 F.3d 137,
140 (2d Cir. 2006) (deeming harmless erroneous
exclusion of state of mind evidence where defendant
"was permitted to testify in sufficient detail as to his
theory of the case" and government presented
overwhelming evidence of guilt); United States v. Lawal,
736 F.2d 5, 9 (2d Cir. 1984) (same).
5. Rule 403 Objections
Sabir submits that the district court erred in admitting
evidence that was more prejudicial than probative,
specifically: (a) certain materials seized from Shah
pertaining to Mohammad Shareef, a radical [*165]
Muslim cleric; (b) testimonial [**103] evidence regarding
a 2000 incident in which certain individuals — not
including Shah or Sabir — attempted to take control of a
Poughkeepsie mosque by force; and (c) testimony
about mujahideen activities in Bosnia. We are not
persuaded.
a. The Shareef Materials
Because Sabir raised no objection to the Shareef
materials at trial, we review the admission of that
material only for plain error. See United States v.
Yousef, 327 F.3d at 121. The point requires little
discussion because Sabir's conclusory challenge fails to
demonstrate error in the admission of evidence
indicating that Shah held radical views on Islam. As
Shah would manifest in his various recorded
statements, such views fueled the formation of the
charged conspiratorial agreement to provide material
support for jihad. Further, Sabir does not even attempt
to show how the admission of such evidence — in a
case in which the conspirators are recorded swearing

Page 25 of 41
41a

634 F.3d 127, *165; 2011 U.S. App. LEXIS 2201, **103
allegiance to al Qaeda — affected his substantial rights
or undermined "'the fairness, integrity, or public
reputation of judicial proceedings.'" United States v.
Payne, 591 F.3d 46, 66 (2d Cir. 2010) (quoting United
States v. Olano, 507 U.S. 725, 732, 113 S. Ct. 1770,
123 L. Ed. 2d 508 (1993)).
b. The Poughkeepsie [**104] Mosque Incident
We review the remaining two rulings for abuse of
discretion, see United States v. Bah, 574 F.3d at 116;
United States v. Mercado, 573 F.3d at 141, and detect
none here.
Sabir submits that the district court committed Rule 403
error in permitting prosecution witness Anwar Kearney,
imam of a mosque in Poughkeepsie, to testify that in
2000, a group of persons who followed the teachings of
Mohammad Shareef attempted to take over the mosque
by force of arms. Although Shah, who taught martial arts
at the mosque, associated with this group, he did not
participate in the armed takeover attempt. Nor did Sabir,
who occasionally visited Shah in Poughkeepsie at about
this time.
The district court concluded that the evidence was
nevertheless probative of the evolution of Shah's state
of mind in embracing jihad. We cannot identify abuse of
discretion in this conclusion. Shah's evolution as a
militant supporter of jihad was relevant in the trial of
Sabir because the two men were close, longstanding
"partners," purportedly so familiar with each other's
minds that one could speak for the other in supporting
jihad. GX 906T at 110. Indeed, at the May 20, 2005
meeting at which the partners [**105] swore allegiance
to al Qaeda, Sabir acknowledged that he and Shah had
been discussing jihad for a long time and referenced
past experiences that informed their agreement to
support jihad by working within their respective areas of
expertise. See id. at 65, 110.
c. Mujahideen Activities in Bosnia
Sabir submits that testimony from Yahya Muhammad, a
longtime friend of Shah, about the support he provided
to mujahideen in Bosnia was more prejudicial than
probative. In fact, the evidence was relevant to
understanding why, in about 2003, Sabir would ask
Muhammad for advice about traveling abroad to provide
medical assistance to mujahideen. See Trial Tr. at 28687. Such evidence, in turn, tended to demonstrate that
when Sabir subsequently offered to serve as an on-call
doctor for al Qaeda combatants in Saudi Arabia, he was
acting with the knowledge necessary to support the

counts of conviction.

[*166] E. Summation Issues
Sabir contends that the district court erred by (1)
precluding him from arguing in summation that the
government had targeted him for prosecution based on
his religion, while allowing the government to make a
contrary argument; and (2) permitting the government to
vouch for its witnesses. [**106] In support of the first
argument, Sabir points us to the following excerpt from
the summations.
[DEFENSE COUNSEL]: Dr. Sabir is an important
piece on the chess board. He's an important piece
to the FBI investigation, and he's an important piece
to Shah. Everybody wants Dr. Sabir.
[THE GOVERNMENT]: Objection.
THE COURT: Sustained.
[DEFENSE COUNSEL]: . . . . [T]here's a very
interesting discourse that occurred between myself
and [Agent] Soufan while he was testifying about
whether or not there was an increase in
investigation by the FBI of the Muslim community
post 9/11. Well, common sense, when you talk
about common sense, you all know that there was,
and to sit here and try to tell you that there wasn't
just belies what the agenda is.
[THE GOVERNMENT]: Objection.
THE COURT: Sustained. Ladies and gentlemen,
the decision of the government to investigate an
individual or the decision of a grand jury to indict an
individual is none of your concern. The only
concern this jury has is whether or not the
government has or has not proved each element[]
of the crimes charged beyond a reasonable doubt.
Trial Tr. at 2417-18.
A sidebar conference ensued, at which the district court
cautioned defense counsel [**107] to refrain from
arguing selective prosecution to the jury, advising that
such a defense should be raised with the court in a
post-trial motion. 38 Defense counsel initially complied

38 No

selective prosecution motion was ever filed in this case.
In an extended colloquy prior to the defense summation, the
district court had already cautioned counsel about the
impropriety of arguments insinuating that Sabir had been
improperly targeted for prosecution, particularly in light of the
fact that investigating agents had no knowledge of Sabir until
he was introduced into the case by co-defendant Shah, and
given that the defense had withdrawn any claim of
entrapment.

Page 26 of 41
42a

634 F.3d 127, *166; 2011 U.S. App. LEXIS 2201, **107
with this instruction, but then more subtly returned to the
selective prosecution theme in attacking the FBI for
"decid[ing] which way the case [against Sabir] was
going" based on an internal perception of what was
"correct" without regard to whether "reality"
demonstrated otherwise. Id. at 2431.
The government responded with the following rebuttal
argument:
Then, there was the argument that the government
is out looking for sinners. The government picked
and chose Dr. Rafiq Sabir as some sort of trophy
blaming the government for its [**108] efforts [in]
fighting terrorism; and this from a defendant who
said, I support all anti-terrorism efforts, that is,
except for if it involves the use of undercovers,
except if it involves people infiltrating the
mujahideen.
...
Well, the government, as the Judge told you, is not
on trial. It's not a game of shifting blame to the
government and blaming agents for what they do,
their jobs, putting their lives on the line and finding
terrorism wherever it is.
You heard the testimony of both the agents in this
case; former Agent Ali Soufan, and Special Agent
Brian Murphy. [*167] Both served this country with
distinction. Both told you that they followed the
investigation where it went. Where it went and
where it ended up was May 20, 2005. With the
defendant taking bayat to bin Laden.
Id. at 2487-88.
Following rebuttal, Sabir unsuccessfully moved for a
mistrial, arguing that the government had improperly
raised the issue of selective prosecution and vouched
for its own witnesses. Reviewing the district court's
decision for abuse of discretion, see United States v.
Smith, 426 F.3d 567, 571 (2d Cir. 2005), we identify
none.
First, we identify no error in the district court's
challenged rulings with [**109] respect to the defense
summation. As we have explained, a selective
prosecution defense alleges "a defect in the institution of
the prosecution," and as such "is an issue for the court
rather than the jury." United States v. Regan, 103 F.3d
1072, 1082 (2d Cir. 1997) (internal quotation marks
omitted); see also Fed. R. Crim. P. 12(b)(3)(A).
Second, we identify no error in the government's

rebuttal. The law has long recognized that summations
— and particularly rebuttal summations — are not
"detached exposition[s]," United States v. Wexler, 79
F.2d 526, 530 (2d Cir. 1935), with every word "carefully
constructed . . . before the event," Donally v.
DeChristoforo, 416 U.S. 637, 646-47, 94 S. Ct. 1868, 40
L. Ed. 2d 431 (1974). Precisely because such
arguments frequently require "improvisation," courts will
"not lightly infer" that every remark is intended to carry
"its most dangerous meaning." Id. To be sure, the
prosecution may not "appeal to . . . passion" in urging a
guilty verdict, United States v. Wilner, 523 F.2d 68, 74
(2d Cir. 1975), but it may be passionate in arguing that
the evidence supports conviction, see United States v.
Wexler, 79 F.2d at 530 (recognizing that summations
are "inevitably charged with emotion"). [**110] As a
consequence, a defendant who seeks to overturn his
conviction based on alleged prosecutorial misconduct in
summation bears a "heavy burden." United States v.
Feliciano, 223 F.3d 102, 123 (2d Cir. 2000) (internal
quotation marks omitted). He must show more than that
a particular summation comment was improper. See
generally United States v. Newton, 369 F.3d 659, 680
(2d Cir. 2004) (observing that "prosecutors' comments
standing alone" will rarely warrant overturning conviction
(internal quotation marks omitted)); United States v.
Rodriguez, 968 F.2d 130, 142 (2d Cir. 1992) (noting that
"it is a 'rare case'" in which improper summation
comments by prosecution will be so prejudicial as to
warrant new trial (quoting Floyd v. Meachum, 907 F.2d
347, 348 (2d Cir. 1990)). He must show that the
comment, when "viewed against the entire argument to
the jury," United States v. Bermudez, 529 F.3d 158, 165
(2d Cir. 2008) (internal quotation marks omitted), and "in
the context of the entire trial," was so severe and
significant as to have "substantially prejudiced" him,
depriving him of a fair trial, United States v. Newton, 369
F.3d at 680; see United States v. Locascio, 6 F.3d 924,
945 (2d Cir. 1993). [**111] That is not this case.
In his own summation, defense counsel repeatedly
ignored court warnings and insinuated to the jury that
Sabir was the victim of selective prosecution. While it
was the court's role, not the prosecution's, to instruct the
jury that this question was not before them, the
government hardly deprived Sabir of a fair trial by briefly
alluding to these improper arguments in reminding them
of the judge's instruction. See generally United States v.
Tocco, 135 F.3d 116, 130 (2d Cir. 1998) ("[W]here the
defense summation makes arguments and allegations
against the government, the prosecutor may respond to
them in rebuttal."); [*168] United States v. Rivera, 971
F.2d 876, 883 (2d Cir. 1992) (noting that defense

Page 27 of 41
43a

634 F.3d 127, *168; 2011 U.S. App. LEXIS 2201, **111
argument may "'open the door' to otherwise
inadmissible prosecution rebuttal"); United States v.
Marrale, 695 F.2d 658, 667 (2d Cir. 1982) (noting that
"prosecutor is ordinarily entitled to respond to the
evidence, issues, and hypotheses propounded by the
defense").
Similarly, we identify no error in the prosecution's
response to the defense attack on its agents' credibility
and competency. See United States v. Perez, 144 F.3d
204, 210 (2d Cir. 1998) (recognizing prosecutors'
[**112] "greater leeway" in commenting on own
witnesses' credibility after defense attack). While
prosecutors may not strike "foul" blows they may strike
"hard" ones, Berger v. United States, 295 U.S. 78, 88,
55 S. Ct. 629, 79 L. Ed. 1314 (1935), and the
challenged arguments stayed on the permissible side of
this line, cf. United States v. Young, 470 U.S. 1, 18, 105
S. Ct. 1038, 84 L. Ed. 2d 1 (1985) (holding that
prosecutor may not imply that extrinsic evidence not
before jury supports witness's credibility); United States
v. Drummond, 481 F.2d 62, 64 (2d Cir. 1973) (holding
that prosecutor may not make issue of "own credibility"
(internal quotation marks omitted)); accord United
States v. Rivera, 971 F.2d at 884. While routine
credibility attacks do not generally call for references to
the life-threatening nature of law enforcement work,
where, as in this case, the defense referenced the
danger inherent in dealing with co-defendant Shah to
question the undercover agent's credibility or
competency in certain respects, the government's brief
allusion to agents "putting their lives on the line" was
within the bounds of fair response.
F. Juror Misconduct
In the course of jury deliberations, the district court
learned that Juror #8, using the electronic search
[**113] engine "Google," had discovered that codefendant Tarik Shah had pleaded guilty to unspecified
charges and then communicated that fact to other
jurors. Sabir submits that the district court erred in failing
to grant his pre-verdict motion for a mistrial or his postverdict motion for a new trial, see Fed. R. Crim. P. 33,
based on this juror misconduct. We are not persuaded.
We review for abuse of discretion the district court's
handling of alleged juror misconduct, see United States
v. Vitale, 459 F.3d 190, 197 (2d Cir. 2006); its denial of
a mistrial, see United States v. Smith, 426 F.3d 567,
571 (2d Cir. 2005); and its denial of a Rule 33 motion for
a new trial, see United States v. McCourty, 562 F.3d
458, 475 (2d Cir. 2009). In doing so, we accord the
district court "broad flexibility," mindful that addressing

juror misconduct always presents "a delicate and
complex task," United States v. Cox, 324 F.3d 77, 86
(2d Cir. 2003) (internal quotation marks omitted),
particularly when the misconduct arises during
deliberations, see United States v. Thomas, 116 F.3d
606, 618 (2d Cir. 1997). Further, we recognize that the
district court is "in the best position to sense the
atmosphere of [**114] the courtroom as no appellate
court can on a printed record." United States v. Abrams,
137 F.3d 704, 708 (2d Cir. 1998) (internal quotation
marks omitted).
While the law presumes prejudice from a jury's
exposure to extra-record evidence, see Remmer v.
United States, 347 U.S. 227, 229, 74 S. Ct. 450, 98 L.
Ed. 654, 1954-1 C.B. 146 (1954); United States v.
Greer, 285 F.3d 158, 173 (2d Cir. 2002), that
presumption may be rebutted by a "showing that the
extra-record information was harmless," Bibbins v.
Dalsheim, 21 F.3d 13, 16 (2d Cir. 1994); see United
States v. Schwarz, 283 F.3d 76, 99 (2d Cir. 2002)
("[N]ot every instance of a juror's exposure to extrinsic
information [*169] results in the denial of a defendant's
right to a fair trial. Many such instances do not."). The
necessary inquiry is "objective," Bibbins v. Dalsheim, 21
F.3d at 17 (internal quotation marks omitted), and
focuses on two factors: (1) the nature of the information
or contact at issue, and (2) its probable effect on a
hypothetical average jury, see United States v.
Schwarz, 283 F.3d at 99.
The effect inquiry properly considers the "entire record"
in making an objective assessment of possible
prejudice. United States v. Weiss, 752 F.2d 777, 783
(2d Cir. 1985). This includes [**115] circumstances
surrounding the jurors' exposure to the information. See
United States v. Greer, 285 F.3d at 173. But a court
may not reach further to inquire into the subjective effect
of the information on jurors' mental processes or on the
jury's deliberations. This limitation, memorialized in Fed.
R. Evid. 606(b), is grounded in the deeply rooted view
that "the secrecy of deliberations is essential to the
proper functioning of juries." United States v. Thomas,
116 F.3d at 618-19 (collecting authorities). In any event,
a district court must be careful that it does not itself
"create prejudice by exaggerating the importance and
impact" of extra-record information. United States v.
Abrams, 137 F.3d at 708.
With these principles in mind, we conclude that the
district court acted well within its discretion in denying
Sabir's mistrial and new trial motions. The district court
reasonably considered the "nature" of the extrinsic

Page 28 of 41
44a

634 F.3d 127, *169; 2011 U.S. App. LEXIS 2201, **115
evidence — an Internet report of Shah's guilty plea — in
light of Sabir's summation concession that Shah was, in
fact, guilty: "[I]f this was a case about Tarik Shah, I
wouldn't even have got up. Tarik Shah is guilty." Trial Tr.
at 2406. The district court concluded [**116] that, in
these circumstances, Sabir was unlikely to be harmed
by extrinsic information entirely consistent with his own
concession.
In urging otherwise, Sabir submits that the defense
summation did not indicate the actual outcome of
Shah's case; was not itself "evidence" of the crime; and,
in contrast to the extra-record information, was not
hearsay. The second and third points warrant little
discussion, as the district court's assessment of the
nature of the information was not based on its
admissibility. Nor did the district court fault defense
counsel's summation or excuse the juror misconduct. As
for the first point, Sabir notes a difference without a
distinction for purposes of identifying prejudice.
Whatever harm might have ensued from the jury's
discovery of Shah's guilty plea in a case where Sabir's
defense did not concede his co-defendant's guilt, where,
as here, such a concession was made, the jury's
discovery that a guilty co-defendant had, in fact,
pleaded guilty, was unlikely to deprive Sabir of a fair
trial.
That conclusion is only reinforced by the district court's
questioning of the jurors. When Juror #8 was asked if
anything would prevent her from being fair and impartial
[**117] in judging Sabir's case, she replied that there
was not. Asked if she would be able to follow the court's
instruction to judge the case solely on the basis of the
trial evidence, Juror #8 answered, "Definitely." Id. at
2694. We have recognized that, in appropriate
circumstances, confirmation of a juror's ability to follow
cautionary instructions can indicate the lack of harm
from misconduct. See United States v. Thai, 29 F.3d
785, 803 (2d Cir. 1994); accord United States v.
Abrams, 137 F.3d at 708.
Sabir suggests that the district court erred in reaching
this conclusion without further asking Juror #8 whether
she had "Googled" Sabir himself. We disagree. Such a
leading question might itself have [*170] "create[d]
prejudice" by implying that a broader search could yield
further information about Sabir. See United States v.
Abrams, 137 F.3d at 708. The district court acted well
within its discretion in instead asking Juror #8 more
generally whether she had uncovered any information
beyond the fact of Shah's guilty plea and, upon
receiving a negative response, making no further inquiry

particular to Sabir.
We further conclude that the district court did not abuse
its discretion in declining to [**118] question the
remaining jurors individually. Addressing the jury as a
whole, the district court instead repeated certain
instructions potentially implicated by Juror #8's actions.
These specifically included the following:
It is your function in this case to decide the issues
of fact. Your decision on the issues of fact is to be
based solely on the evidence. Nothing I say is
evidence. Nothing any of the lawyers say is
evidence. Questions by themselves are not
evidence. Objections are not evidence. Testimony
that has been excluded or which you're told to
disregard is not evidence. The evidence consists of
the sworn testimony of the witnesses and the
exhibits that have been received into evidence for
your consideration. Also, in some instances there
were facts the lawyers agreed to or facts that I
instructed you to find.
. . . You may not draw any inference, favorable or
unfavorable, toward the government or the
defendant from the fact that any person in addition
to the defendant is not on trial here. You also may
not speculate as to the reasons why other persons
are not on trial. Those matters are wholly outside
your concern and have no bearing on your function
as jurors.
...
Now, ladies [**119] and gentlemen, is there any
juror who is unable or unwilling to follow those
instructions? Anyone?
Trial Tr. at 2698-2700. Because no juror indicated that
he or she would have a problem following these
instructions, see United States v. Thai, 29 F.3d at 803,
the district court reasonably concluded from the totality
of the circumstances that the misconduct at issue did
not warrant either a mistrial or new trial, see United
States v. Greer, 285 F.3d at 173; United States v.
Abrams, 137 F.3d at 708.

III. Conclusion
To summarize, we conclude that:
1. Title 18 U.S.C. § 2339B is not overbroad or otherwise
unconstitutionally vague as applied to Sabir's case.
2. The trial evidence was sufficient to support Sabir's
conviction for conspiring and attempting to provide

Page 29 of 41
45a

634 F.3d 127, *170; 2011 U.S. App. LEXIS 2201, **119
material support to a known terrorist organization.
3. The jury selection in Sabir's case did not violate the
Equal Protection Clause as construed in Batson v.
Kentucky, 476 U.S. 79, 106 S. Ct. 1712, 90 L. Ed. 2d
69.
4. With respect
challenges:

to

Sabir's

various

evidentiary

a. the district court did not abuse its discretion in
admitting expert testimony pertaining to al Qaeda
pursuant to Fed. R. Evid. 702;
b. the admission of recorded conversations between codefendant [**120] Shah and either an informant or
undercover agent was supported by Fed. R. Evid.
801(d)(2)(E) and did not violate Sabir's constitutional
right to confrontation;
c. the district court acted within its discretion in allowing
cross-examination about a witness's prior statements in
the grand jury but in refusing to admit the grand jury
transcript as evidence of a prior [*171] inconsistent
statement pursuant to Fed. R. Evid. 801(d)(1)(A);
d. we need not decide whether the district court erred in
holding that evidence of Sabir's professed state of mind
on October 5, 2004, was inadmissible under Fed. R.
Evid. 803(3) because any error would, in any event, be
harmless in this case; and
e. there is no merit to Sabir's claims that various
evidence should have been excluded under Fed. R.
Evid. 403 as more prejudicial than probative.
5. The district court's summation rulings did not deprive
Sabir of a fair trial.
6. The district court acted well within its discretion in
denying Sabir's motions for a mistrial and new trial
because the record plainly supports its finding that Sabir
was not prejudiced by juror exposure to extrinsic
Internet information about co-defendant Shah.
The [**121] judgment of conviction is AFFIRMED.
Concur by: REENA RAGGI (In Part)

Concur
REENA RAGGI, Circuit Judge, concurring in part:

With respect to Part II.D.4 of the court's opinion, I
certainly agree with the conclusion that if there was any
error in the district court's failure to admit Sabir's
October 5, 2004 statements to federal authorities when
entering the United States from Saudi Arabia, such error
was harmless beyond a reasonable doubt. See ante at
[68-69]. I would go further, however, and conclude that
there was no error because Sabir's October 5, 2004
statements did not, in fact, satisfy the requirements of
Federal R. Evid. 803(3). To explain this conclusion, it is
necessary to discuss those requirements in some detail.
Rule 803(3) recognizes a hearsay exception for
[a] statement of the declarant's then existing state
of mind, emotion, sensation, or physical condition
(such as intent, plan, motive, design, mental
feeling, pain, and bodily health), but not including a
statement of memory or belief to prove the fact
remembered or believed unless it relates to the
execution, revocation, identification, or terms of
declarant's will.
All hearsay exceptions are rooted in one or more
conditions thought to ensure [**122] sufficient reliability
to permit a factfinder to forego the law's preferred
means for testing evidence: cross-examination. In the
case of Rule 803(3), that condition is "contemporaneity,"
i.e., the statement must evidence the declarant's "then
existing state of mind," a circumstance presumed to
reduce a declarant's chance for reflection and,
therefore, misrepresentation. See United States v.
Cardascia, 951 F.2d 474, 487-88 (2d Cir. 1991); see
also 2 McCormick on Evidence § 274, at 267 (Kenneth
S. Broun ed., 6th ed. 2006) ("[T]he special assurance of
reliability for statements of present state of mind rests
upon their spontaneity and resulting probable sincerity.
The guarantee of reliability is assured principally by the
requirement that the statements must relate to a
condition of mind or emotion existing at the time of the
statement." (footnote omitted)).
Contemporaneity, of course, is not a foolproof safeguard
of reliability. As commentators have observed, "few
things are easier than to misrepresent one's thoughts."
4 Christopher B. Mueller & Laird C. Kirkpatrick, Federal
Evidence § 8:70, at 596 (3d ed. 2007) (observing that
"state-of-mind exception offers less assurance against
deception [**123] than some others that also require
immediacy"). This has prompted a number of courts to
condition Rule 803(3) admissibility on the presence of
"no suspicious circumstances suggesting a motive for
the declarant to fabricate or misrepresent his or her
thoughts." 5 Jack B. Weinstein & Margaret A. Berger,

Page 30 of 41
46a

634 F.3d 127, *172; 2011 U.S. App. LEXIS 2201, **123
[*172] Weinstein's Federal Evidence § 803.05[2][a], at
803-31 & n.4 (Joseph M. McLaughlin ed., 2d ed. 2007)
(collecting cases); see 4 Mueller & Kirkpatrick, supra, §
8:71, at 613-14 & n.30 (collecting cases); see also 6
John H. Wigmore, Evidence in Trials at Common Law §
1732, at 160 (James H. Chadbourn ed., rev. ed. 1976)
(providing for statement of then existing state of mind to
be excluded if "circumstances indicate plainly a motive
to deceive"). This court, however, is not among them.
In United States v. DiMaria, 727 F.2d 265 (2d Cir. 1984)
(Friendly, J.), we observed that the Federal Rules of
Evidence create hearsay exceptions by "categories," id.
at 272. We thus concluded that if a statement fits an
identified category, no further "finding of probable
credibility by the judge" is generally required to apply the
hearsay exception. Id. (recognizing that credibility of
statement may be considered [**124] in connection with
business record and residual hearsay exceptions).
Thus, the self-serving nature of a statement expressing
a state of mind does not automatically preclude
application of Rule 803(3). That concern is properly
considered by the jury in deciding what weight to accord
the statement. See id. at 271; accord United States v.
Cardascia, 951 F.2d at 487.
Although this court does not superimpose any credibility
condition on Rule 803(3), we have in no way relaxed the
rule's stated requirement for assuring reliability:
contemporaneity. Nor have we absolved statements
satisfying Rule 803(3) from the relevancy requirements
of Fed. R. Evid. 401 and 403. See generally 2
McCormick on Evidence, supra, § 274, at 267-69 n.8
(observing that contemporaneity requirement of Rule
803(3) works together with relevance rules in
determining admissibility of statement).
United States v. DiMaria presented no contemporaneity
or relevance concerns. The defendant's spontaneous
utterance to approaching FBI agents — "I only came
here to get some cigarettes real cheap" — easily
satisfied Rule 803(3)'s contemporaneity requirement in
that it purported to reveal the declarant's then existing
state of mind [**125] with respect to the very conduct in
which he was engaged. 727 F.2d at 270-71. Such a
statement was relevant because defendant's mens rea
at the precise moment of his utterance was an element
of the charged crime. See id. at 271. Further, we
assigned a high probative value to the statement
because the government was relying on a presumption
to carry its mens rea burden. See id. at 272 (observing
that admission of statement was particularly warranted
because "the Government is relying on the presumption

of guilty knowledge arising from a defendant's
possession of the fruits of a crime recently after its
commission").
DiMaria, however, had no occasion to consider
contemporaneity and relevance in the circumstances
presented here: a statement of state of mind made on
one occasion offered as evidence of state of mind on
another occasion. The proffered statement may express
the declarant's state of mind at the time made, but that
does not make it relevant to mens rea at a different
time. The law nevertheless recognizes the possibility
that an expression of state of mind on one occasion
may be relevant to state of mind at a later time where
the statement reflects "a [**126] continuous mental
process." United States v. Cardascia, 951 F.2d at 488.
Such
continuity
effectively
extends
the
"contemporaneity" of the statement beyond the moment
of pronouncement. Cf. id. (recognizing possibility of
continuity extending contemporaneity required by Rule
803(3) but not finding principle applicable to statement
offered to [*173] support backward inference 1). For
example, experience and common sense indicate that
someone who professes to be a baseball fan on
Monday is likely to be of the same state of mind on
Tuesday. Statements of intent also may reflect a
continuing mental process. See 2 McCormick on
Evidence, supra, § 274, at 270 (observing that assertion
of then-existing intent to go on business trip next day
"will be evidence not only of the intention at the time of
the statement, but also of the same purpose the next
day when the declarant is on the road").
Not all statements describing a declarant's mental state,
however, warrant an inference of continuity. Some
expressions of emotion last a lifetime, while others may
be unlikely to persist long after their triggering events.
Some professions of state of mind may be too vague or
tenuous to support an inference of continuity,
particularly where there is a significant lapse of time
between the declaration and the mens rea at issue.
Intervening events may also signal a possible change in
the declarant's state of mind. This court has thus held
that "[w]hether a statement is part of a continuous
mental process and therefore admissible under the

1 Backward

looking inferences generally run afoul of Rule
803(3)'s express exclusion of "statement[s] of memory or
belief to prove the fact remembered or believed." See also 4
Mueller & Kirkpatrick, supra, § 8:71, at 603-06 (discussing
issues associated with drawing forward and backward
inferences as to mens rea from [**127] statement made at
time distinct from that at which conduct at issue occurred).

Page 31 of 41
47a

634 F.3d 127, *173; 2011 U.S. App. LEXIS 2201, **127
present state of mind exception" is "a question for the
trial court." United States v. Cardascia, 951 F.2d at 488.
As with any determination of fact, we will not disturb a
trial court's finding as to likely continuity in the absence
of clear error. Cf. United States v. Monteleone, 257 F.3d
210, 221 (2d Cir. 2001) (applying clear error review to
factual findings underlying trial court's decision to admit
statement under Fed. R. Evid. 801(d)(2)(E)); United
States v. Gigante, 166 F.3d 75, 82 (2d Cir. 1999)
[**128] (same).
Precisely because a finding of continuity effectively
extends the contemporaneity of a statement beyond
common understanding — and, therefore, expands the
application of Rule 803(3) — the question merits careful
judicial attention. Commentators have appropriately
suggested that district courts should consider "all the
factors on both sides of the equation" in determining the
likely continuity of a proffered statement of state of
mind, including "the possibility of bad faith" by the
declarant. 5 Weinstein & Berger, supra, § 803.05[2][c][i],
at 803-36. This is not contrary to DiMaria, which
precludes judicial inquiry into the credibility of the
expressed state of mind when contemporaneity is not at
issue. But where contemporaneity is in question,
depending on whether a state of mind expressed on one
occasion is likely to have continued through to another
time relevant to the case, a district court's consideration
of the totality of the circumstances properly includes any
indications as to whether the proffered statement was
made in good or bad faith. Other factors that may also
inform the inquiry include, but are not limited to, what
the statement itself actually says about the
[**129] declarant's state of mind and how clearly, the
lapse of time between the statement and the conduct for
which mens rea is at issue in the case, and any
intervening life events or statements by the declarant
signaling a possible break in mental process or change
of mind. See generally 4 Mueller & Kirkpatrick, supra, §
8:71, at 604.
With these principles in mind, I identify no error in the
exclusion of Sabir's October 5, 2004 statements. As the
district court [*174] correctly recognized, the vast
majority of those statements recounted "things that
happened in the past," Trial Tr. at 1343, i.e., "fact[s]
remembered," Fed. R. Evid. 803(3), and, thus, fall
outside the rule's exception. As for the few statements
purporting to express Sabir's then existing state of mind
— i.e., his professed appreciation for life in the United
States compared to Saudi Arabia, his stated intent to
return to live in the United States and to "make things
better" in this country, and his observation that he did

not condone suicide bombing — I note that Sabir's state
of mind on October 5, 2004, the date of declaration, was
not really at issue in the case. To be sure, that date fell
within the time frame of the charged [**130] conspiracy.
But conspirators, like other persons, do not pursue their
objectives at all times. Certainly, the government did not
contend that any of Sabir's actions on October 5, 2004,
were in furtherance of the conspiracy. Much less did it
rely on those actions in attempting to prove a mens rea
element of the crime. Rather, it focused on Sabir's
words and actions at the May 20, 2005 meeting with the
undercover agent to prove a mens rea intent on
supporting terrorism. To the extent Sabir offered his
October 5, 2004 statements as evidence of a state of
mind not disposed to support al Qaeda, the
requirements of contemporaneity and relevance
required the district court to decide whether Sabir likely
maintained that state of mind through that date.
This conclusion is not at odds with our holding today on
Sabir's Rule 801(d)(2)(E) challenge because a trial
court's focus in deciding what evidence to admit is
different from a jury's focus in deciding the question of
guilt. While the trial court was required to find the
existence of a conspiracy throughout the period 2003-05
to admit Shah's recorded statements against Sabir
under Rule 802(d)(2)(E), it was required to make that
finding only [**131] by a preponderance. Meanwhile,
the jury could not convict Sabir of conspiracy except
upon proof beyond a reasonable doubt, but it could
make that finding with respect to any time within the
charged period. See United States v. Heimann, 705
F.2d 662, 666 (2d Cir. 1983) (upholding conviction
where conspiracy proved some time within charged
period). Thus, where, as in this case, all parties focused
on May 20, 2005, as the critical date for determining
Sabir's participation in the charged conspiracy and
related attempt offense, the trial judge could
appropriately consider whether Sabir's earlier professed
state of mind likely continued to that date in deciding
whether the statement was admissible under Rules 401,
403, and 803(3).
The record not only fails to support such a finding of
continuity; it compels a contrary conclusion. As the
district court observed, Sabir's October 5, 2004
statements were vague and self-serving, raising
legitimate concerns about the likelihood of his
maintaining the state of mind they purportedly described
into the next year. 2 [T 1118] Quite apart from these

2 The

district court alluded to the self-serving nature of Sabir's

Page 32 of 41
48a

634 F.3d 127, *174; 2011 U.S. App. LEXIS 2201, **131
concerns, however, the record provides conclusive
proof that Sabir's purported state of mind [*175] on
October [**132] 5, 2004, was not his state of mind on
May 20, 2005. That proof is, of course, the tape
recording of the May 20 meeting. Far from indicating
that Sabir was not inclined to support al Qaeda, the
recording showed him swearing fealty to this terrorist
organization and promising to support it by serving as
an on-call doctor for its wounded combatants in Saudi
Arabia. On this record, I think it would be impossible to
find that the October 5, 2004 statements expressed a
then-existing state of mind that continued through May
20, 2005. In the absence of such continuity, the October
5, 2004 statements failed to satisfy both the
contemporaneity requirement of Rule 803(3) and the
relevancy requirements of Rules 401 and 403. For these
reasons, I think the district court properly excluded the
statements from evidence, and I would reject Sabir's
Rule 803(3) challenge as without merit.
Dissent by: Dearie (In Part)

Dissent
Dearie, Chief District Judge, dissenting in part.
I write to voice my strong disagreement with the
majority's conclusion that the evidence is legally
sufficient to sustain the attempt conviction. I otherwise
concur.
This is not an attempt. I agree that application of the
familiar "substantial step" formula must be made on a
case-by-case basis and that in some cases the
adequacy of the proof may not be readily determined,
but this is not such a case. I agree that the distinction
between various forms of material support may prove
meaningful in some cases, but again this is not such a
case. Whatever the label, the substantive crime was so

October 5, 2004 statements not only in refusing to admit those
statements under Rule 803(3), but also in rejecting Sabir's
argument that the statements were admissible under Rule
801(d)(1)(B) to rebut a charge of recent fabrication in his trial
testimony. [**133] [T 1630-35] See United States v. AlMoayad, 545 F.3d at 167 (explaining that "Rule 801(d)(1)(B) . .
. includes a fundamental temporal requirement: 'The statement
must have been made before the declarant developed [an]
alleged motive to fabricate.'" (quoting United States v.
Forrester, 60 F.3d 52, 64 (2d Cir. 1995))). I note that Sabir
does not challenge the district court's 801(d)(1) ruling on
appeal.

remote in time, place and objective that one is left only
to speculate as to what, if anything, would have
happened had Sabir in fact been [**134] in a position to
pursue the conspiratorial goal.
Without the benefit of meaningful input from the litigants
or trial court, moreover, the majority appears to expand
the reach of "personnel" 1 to include those who do
nothing beyond "pledge[] to work under the direction of
the organization." Majority Op., ante at [47]. This
conclusion is without precedent and hinges upon what
is, in my view, a seriously flawed interpretation of the
material support statutes.

I.
There is no question that, construed in the government's
favor, the evidence supports the conspiracy count. A
rational jury could have found that, at the single meeting
with his co-conspirator [**135] and the undercover
agent, Sabir indeed agreed to provide medical support
to wounded al Qaeda somewhere in Saudi Arabia at
some point in the future. Fairly stated, the majority
further concludes that once Sabir offered these
services, he took a substantial step toward becoming
the organization's "on call" doctor. The remaining
evidence to support the attempt conviction is Sabir's
swearing an oath to al Qaeda, which the government
acknowledges is not a criminal act, and his providing
contact numbers, which the decisions of this Circuit
confirm is not a substantial step toward the commission
of a crime.
The majority is correct that a "substantial-step analysis
necessarily begins with a proper understanding of the
crime being [*176] attempted." Majority Op., ante at
[36]. Count Two of the indictment charged Sabir with
attempting to provide "material support" to al Qaeda in
the form of "personnel, training, and expert advice and
assistance, as those terms are defined" in 18 U.S.C. §§
2339A-B, "to wit . . . attempt[ing] to provide medical

1 Title

18 U.S.C. § 2339B(h) disallows prosecution "in
connection with the term 'personnel' unless [a] person has
knowingly provided, attempted to provide, or conspired to
provide a foreign terrorist organization with 1 or more
individuals (who may be or include himself) to work under that
terrorist organization's direction or control." As we reaffirm in
response to Sabir's challenge, this "limiting definition . . .
answers [any] vagueness concerns," rendering the provision
constitutional. Humanitarian Law Project v. Holder, 130 S. Ct.
2705, 2721, 177 L. Ed. 2d 355 (2010).

Page 33 of 41
49a

634 F.3d 127, *176; 2011 U.S. App. LEXIS 2201, **135
support to wounded jihadists." (4th Superseding
Indictment, 05 cr 673, Dkt. #89, at 3-4.) The majority,
however, does not affirm on the ground that Sabir's
actions [**136] were an attempt to provide actual
medical support to wounded jihadists in Saudi Arabia.
Nor could it, in light of this Circuit's established
precedent, discussed below. Rather, the majority
focuses elsewhere, concluding that "[w]hether or not
Sabir's May 20, 2005 actions were a substantial step in
the provision of expert medical services to terrorists,"
Sabir's actions on this date "were a substantial step in
the provision of Sabir himself as personnel." Majority
Op., ante at [43] (emphasis supplied).
The rule is clear enough "that we may affirm on any
grounds for which there is a record sufficient to permit
conclusions of law." Chesley v. Union Carbide Corp.,
927 F.2d 60, 68 (2d Cir. 1991) (internal quotation marks
omitted). There is no dispute that the evidence is
sufficient to establish the element of intent, leaving only
the import of Sabir's conduct to be determined. The
majority concludes that a reasonable juror could find,
based on the evidence, that Sabir took a substantial
step toward providing himself as personnel. Going
further, the majority suggests that Sabir's conduct would
have sufficed to provide himself as personnel had
circumstances been as he believed, a novel question
[**137] that the litigants never expressly considered,
much less briefed. 2 I address these matters in turn.

II.
The issue before us is whether Sabir's meeting with an
undercover agent in the Bronx, "swearing an oath of
allegiance to al Qaeda" and "providing . . . contact
numbers for al Qaeda members to reach him in Saudi

2 During

and after trial, the government advanced the view that
the attempt count in this case regards actual medical support.
See Gov't Summation, 5/15/07 Trial Tr., 05 cr 673, at 2373-74
("How did Rafiq Sabir try to provide material support? In this
case, his expert advice and assistance in the form of his
medical skills."); Gov't Sentencing Mem., 05 cr 673, Dkt. #174,
at 3 ("Sabir took a substantial step toward providing expert
advice and assistance — i.e., his medical skills — to al
Qaeda."). In defending the conviction on appeal, the
government speaks of "material support" generally. Gov't Br.
at 58. At oral argument, however, the government confirmed
that Sabir attempted to provide "medical services," then
offered to perform additional research to present its "best
case" that Sabir might have been found guilty of attempting to
provide personnel.

Arabia" constitute a substantial [**138] step toward his
providing personnel (i.e., himself) to work under al
Qaeda's direction and control. Majority Op., ante at [40].
Although "substantial step" analysis is often "fraught
with difficulty," United States v. Ivic, 700 F.2d 51, 66 (2d
Cir. 1983), in this case, the question is straightforward
and readily answered in the negative.
I find no case, in any court, that even remotely supports
the majority's conclusion that a defendant attempts a
crime simply by agreeing to commit the crime and
providing a phone number. Nor does the government, in
its single-paragraph ipse dixit defense of the conviction,
offer any authority to support its position. The majority
opinion cites established precedents that recite the
recognized law of attempt, but none of these cases,
regardless of outcome, justifies the majority's position.
Quite the contrary.
[*177] First, the cases routinely hold that mere
preparation is not an attempt. See, e.g., United States v.
Manley, 632 F.2d 978, 987 (2d Cir. 1980) ("A substantial
step must be something more than mere preparation,
yet may be less than the last act necessary before the
actual commission of the substantive crime."). As the
majority notes, a substantial [**139] step must be part
of "'a course of conduct planned to culminate in [the]
commission of the crime.'" Ivic, 700 F.2d at 66 (quoting
Model Penal Code § 5.01(1)(c)). It is the conduct that is
dispositive. Here, however, there was little to none.
There was just talk that was, for the most part, prompted
by the undercover agent. There is no evidence of any
activity whatsoever that might indicate that Sabir had
indeed embarked upon a determined path to proximate
criminality in providing material support.
Second, in the cases in which this Circuit has sustained
a finding of attempt, "'the accused's conduct ha[d]
progressed sufficiently to minimize the risk of an unfair
conviction.'" Manley, 632 F.2d at 988 ("'[A]n attempt is
necessarily predictive . . . .'") (quoting United States v.
Busic, 549 F.2d 252, 257 n.9 (2d Cir. 1977)). For
example, in United States v. Stallworth, 543 F.2d 1038,
1041 (2d Cir. 1976), the case in which we adopted the
substantial step formulation of the Model Penal Code,
we found evidence of a substantial step toward robbery
because the defendants cased the target bank,
discussed their plan of attack, armed themselves, stole
ski masks and surgical gloves, and actually
[**140] moved toward the bank to commit the crime.
We held that "[a]ll that stood between appellants and
success was a group of F.B.I. agents and police
officers" whose timely intervention "probably prevented

Page 34 of 41
50a

634 F.3d 127, *177; 2011 U.S. App. LEXIS 2201, **140
not only a robbery but possible bloodshed." Id. at 1041.
Likewise, in Manley, 632 F.2d at 988, we held that the
defendant took a substantial step toward purchasing
drugs because he drove to an acquaintance's home late
at night with a large amount of cash that was roughly
equivalent to the value of the cocaine found at the
house. In affirming that conviction, we aptly observed
that "it is hard to conceive of any additional preliminary
steps which [the defendant] could have taken short of
the actual acquisition of the narcotics." Id. at 989. And in
United States v. Crowley, 318 F.3d 401, 408 (2d Cir.
2003), we found sufficient evidence of an attempt to
commit a sexual act by force after the defendant pinned
his victim to the bed, put his hand in her shorts and
sought to penetrate her with his fingers. By comparison,
the meager evidence of any action by Sabir to further
the criminal objective falls far short of a substantial step.
The majority also relies on Ivic, 700 F.2d at 67, a case
that [**141] explores the outer boundaries of what
actions constitute a substantial step. In that case,
having already acquired explosives and devised a plan
of attack, one defendant authorized the bombing of a
travel agency and the other reconnoitered the site.
Judge Friendly found that the evidence of attempt was
"sufficient, although barely so." Id. (emphasis supplied).
If casing the location and stockpiling explosives is
"barely" an attempt, how can Sabir's limited conduct
possibly be?
The principal case the majority invokes, United States v.
Delvecchio, 816 F.2d 859, 861-62 (2d Cir. 1987),
compels the conclusion that no attempt occurred here.
The majority correctly cites this decision as "hold[ing]
that evidence of a verbal agreement alone, without
more, is insufficient as a matter of law to support an
attempt conviction," id. at 862, but finds that "by
promising to be on call in Saudi Arabia to treat wounded
al Qaeda members[] and by providing private and work
contact numbers," [*178] Majority Op., ante at [40],
Sabir engaged in a substantial step sufficient to sustain
a conviction for attempting to provide himself as
personnel. Closer attention to Delvecchio's facts
illuminates the flaw in the majority's [**142] reasoning.
In Delvecchio, we found the evidence of an attempt to
purchase drugs insufficient even though Delvecchio and
his partner had sought out suppliers, actually an
undercover agent and an informant, then agreed to buy
five kilograms of heroin from them at 10:00 pm the
following evening for $195,000 per kilogram on a
specific street corner in Manhattan. At one of two dinner
meetings, the Delvecchio defendants, like Sabir, gave

their contact numbers to the agent and informant. Id. at
861. Without hesitation, however, we concluded that the
defendants had not attempted to purchase the
narcotics, because their "plan to possess heroin had
only advanced to the stage of meeting with their
purported suppliers to work out the terms of the deal."
Id. at 862 ("[E]vidence of a verbal agreement alone,
without more, is insufficient as a matter of law to support
an attempt conviction."). The government failed to show
that the defendants "performed any overt act to carry
out the agreed upon" transaction; the defendants had
not, for example, "set out for the meeting site" or
"attempted to acquire the almost one million dollars
necessary to complete the purchase." Id. We upheld the
defendants' conspiracy [**143] convictions alone.
It cannot seriously be disputed that the Delvecchio
defendants' actions, like those of the defendants in
every case mentioned above, were far closer to an
attempt at the respective crime than were Sabir's. The
Delvecchio defendants worked out every aspect of an
imminent drug deal. Sabir, by contrast, viewing the facts
in the government's favor, agreed to be "on call" as a
doctor halfway around the world under unspecified
conditions at some indefinite time in the future. Sabir
never had the chance to demonstrate whether his
actions would have been consistent with his
conspiratorial pledge. Indeed, Sabir and the undercover
did not even "work out the terms of the deal." Id. at 862.
Before Sabir could have placed himself under al
Qaeda's direction or control, moreover, he needed to
return to Riyadh. He "[a]ssum[ed] that" he could "get
back," which required locating or replacing his passport
and enlisting the aid of the consulate. GX906T at 14. In
addition to these administrative hurdles, Sabir had to
overcome restrictions on his mobility and find a place in
which to treat wounded mujahideen. Sabir told the
undercover that he was being forced to live on hospital
grounds, [**144] id. at 66-70, agreed that he could not
treat wounded jihadists at the hospital, id., doubted his
ability to leave the confines of his hospital "without
people watching [his] every movement," id. at 70-71,
and volunteered that he had no means of transportation,
id. at 16. 3 The Delvecchio defendants, in stark contrast,

3 Although

Sabir told the undercover that he could "leave the
job" if "living on the hospital property is big enough of a
problem," GX906T at 69, the undercover mentioned Sabir's
"very helpful" hospital ID, to which Sabir responded: "I guess
that it means that if they are forcing me to live in the hospital
property, then I might just have to submit to that and to try to,
uh, find another way." Id. at 67-69.

Page 35 of 41
51a

634 F.3d 127, *178; 2011 U.S. App. LEXIS 2201, **144
completed all such preliminary arrangements, but even
then the panel readily concluded that no attempt had
occurred. 816 F.2d at 862.
The majority purports to distinguish Delvecchio in a
number of ways. Initially, the majority notes that
"[w]hereas an attempt to possess focuses on a
defendant's efforts to acquire, an attempt to provide
[*179] focuses on his efforts to supply, a distinction that
necessarily informs" the attempt analysis. Majority Op.,
ante at [37]. This distinction [**145] is not meaningful.
To demonstrate, suppose that the Delvecchio
defendants' convictions were based upon an agreedupon supply of drugs to an undercover agent, rather
than an acquisition from the agent. In such a case,
would a verbal agreement plus a contact number equal
an attempt? We held otherwise in United States v.
Rosa, 11 F.3d 315, 339-40 (2d Cir. 1993). Because the
Rosa defendant "did not produce any heroin for the
proposed sale," nor had he "made any effort to obtain
heroin . . . in order to sell it to" the agent, we once again
held the evidence insufficient to sustain an attempt
conviction. Id. at 340-41. Rosa illustrates that, whether
acquiring or providing, a defendant who follows an
agreement with inactivity while the criminal objective
remains beyond reach cannot be guilty of an attempt.
See Rosa, 11 F.3d at 340 (emphasizing the defendant's
statement that his own supplier "might be in jail"). In
either case, the pivotal issue is proximity — in time,
place or readiness — to commission of the charged
offense.
To support its conclusion, the majority poses the
hypothetical situation in which we are to assume that
Sabir is not a doctor but rather an al Qaeda recruiter
who recruits [**146] doctors like Sabir. The majority is
correct that, under those circumstances, the recruiter
could be found guilty of attempting to provide personnel.
Such conduct, which could be accomplished locally,
would be real, measurable and meaningful. See
Stallworth, 543 F.2d at 1040 n.5 (noting that "'soliciting
an innocent agent to engage in conduct constituting an
element of the crime'" may be a substantial step
sufficient to uphold an attempt conviction) (quoting
Model Penal Code 5.01(2)(g)). Simply stated, the
recruiter in the hypothetical has done something. He
has provided a service to the organization. His
culpability is not a matter of conjecture. Cf. United
States v. Awan, 384 F. App'x 9, 13 (2d Cir. 2010)
(affirming conviction for conspiracy to provide personnel
where testimony and recorded conversations "provided
sufficient evidence from which a rational jury could find
that [the defendant] was recruiting for" a foreign terrorist

organization). By attending a meeting and volunteering
his services, the actual Sabir, unlike the hypothetical
recruiter, has done nothing more than reiterate
agreement. 4
Finally, and most importantly, the majority proposes that
Sabir went beyond attending a meeting and agreeing to
serve: he "took a step essential to provide al Qaeda with
personnel in the form of an on-call doctor" by
"provid[ing] the means by which mujahideen in Riyadh
could reach that doctor at any time." Majority Op., ante
at [42]. This observation might have some significance if
Sabir's "enlistment" came at or near some jihadist camp
or battleground, and he was situated, equipped and
ready to assist; but the location in question was almost
7,000 miles away, and no preparations to be "on call"
had been made or even discussed, [**148] 5 leaving
[*180] the actual provision of material support entirely a
matter of speculation and surmise. If, to borrow the
majority's phrase, "a step essential" to sustain an
attempt conviction were provision of a contact number
for resultant transactions, then Delvecchio must have
been wrongly decided. Drawing all conceivable
inferences in favor of the government, there is simply no
way to square these facts with the cases cited and
conclude that an attempt has been established.

III.
Just as troubling as the majority's "substantial step"
analysis is its suggestion that a person actually
completes the crime of providing "material support in the
form of personnel as soon as he pledges to work under
the direction of the organization." 6 Majority Op., ante at

4 The

majority's conclusion that these actions comprise a
substantial step, thus distinguishing [**147] this case from
Delvecchio and Rosa, begs the analysis, since those opinions
focus on the respective defendants' actions (or lack thereof)
after their initial agreements with the undercover agents. Sabir
did not, for instance, call multiple subsequent meetings,
describe his criminal plan in the utmost detail, settle most but
not "all of the specifics" and "continue[] to negotiate with the
government agent[until his arrest prevented him from doing
so." United States v. Jonsson, 15 F.3d 759, 762 (8th Cir.
1994) (finding such actions sufficient to distinguish
Delvecchio).
5 The

undercover agent initially requested Sabir's phone
number in case "there is anything you [i.e., Sabir] need over
there." GX906T at 40 (emphasis supplied).
6 In

footnote [19] to the majority opinion, Judge Raggi

Page 36 of 41
52a

634 F.3d 127, *180; 2011 U.S. App. LEXIS 2201, **147
[47]. In so suggesting, the majority enters largely
untested statutory waters.
The few courts to rule on sufficiency challenges relating
to the term "personnel" — or even to construe the term
— have required a level of engagement, activity or
compliance far surpassing Sabir's someday, someplace
commitment here. 7 Compare United States v. Abu-

expresses her own view that had the undercover agent
instead been an al Qaeda operative, the evidence might well
support a finding that Sabir actually [**149] provided himself
as personnel, and not merely attempted to do so. Although the
majority states that it does not reach that question, the
suggestion that Sabir's actions might have completed the
crime likewise appears in connection with the majority's
definition of "reserve personnel." Majority Op., ante at [46-47].
The identity of the meeting's third participant, however, has no
bearing on the attempt analysis. Had a bona fide high-level
recruiter been at that meeting, the breadth of the provable
conspiracy would have widened; but without a substantial
step, as courts until now have construed the requirement, no
attempt would have occurred.
7 The

statutory provision at issue, enacted in 2004, prohibits a
person from providing (or attempting to provide) "himself" as
personnel to a terrorist organization, and adds the requirement
that personnel must work under the organization's "direction or
control." 18 U.S.C. § 2339B(h). "Statutory definitions control
the meaning of statutory words, of course, in the usual case."
Lawson v. Suwannee Fruit & S.S. Co., 336 U.S. 198, 201, 69
S. Ct. 503, 93 L. Ed. 611 (1949) (authorizing deviations from
the general rule in the "unusual case" or where a term is
defined with less than "'watch-like precision'"). Personnel is
ordinarily defined as the "body of people employed in an
organization, or engaged in a service or undertaking, esp. of a
military nature" (Oxford English Dictionary Online,
http://www.oed.com/view/Entry/141512?redirectedFrom=perso
nnel#), [**152] or the "body of persons employed by or active
in an organization, business, or service" (American Heritage
Dictionary of the English Language 1311 (4th ed. 2000)). I
offer these definitions not, as the majority suggests, to
override the statute, but to inform the question of what in fact
suffices to provide oneself as personnel, a "blank to be filled."
Burgess v. United States, 553 U.S. 124, 130-32, 128 S. Ct.
1572, 170 L. Ed. 2d 478 (2008) (evaluating a statutorily
defined term in "context" and in light of how the term "is
commonly defined"). The language in § 2339B(h), moreover,
is not a traditional definition, which appear in § 2339B(g)
(defining "classified information," "financial institution,"
"training," "expert advice and assistance" and other terms).
Rather, § 2339B(h) bars prosecution unless certain
requirements are met; nothing suggests that these
preconditions are conclusive of liability. See Sedima, S.P.R.L.
v. Imrex Co., Inc., 473 U.S. 479, 496 n.14, 105 S. Ct. 3275, 87
L. Ed. 2d 346 (1985) (holding that where a statutory

Jihaad, 600 F. Supp. 2d 362, 401 (D. Conn. 2009)
(communicating sensitive defense information to
terrorist organization on single occasion [*181] was
insufficient evidence of providing self as "personnel,"
without evidence that the organization requested such
information pursuant to a prior "arrangement[]"
[**150] and that the defendant "did as requested"), aff'd
on other grounds, 630 F.3d 102, 2010 U.S. App. LEXIS
25832, 2010 WL 5140864 (2d Cir. Dec. 20, 2010);
United States v. Warsame, 537 F. Supp. 2d 1005, 1018
(D. Minn. 2008) (contacting overseas al Qaeda
associates while in North America, without more, "would
be inadmissible as evidence of guilt [absent] additional
conduct that would constitute provision of 'personnel'")
with United States v. Taleb-Jedi, 566 F. Supp. 2d 157
(E.D.N.Y. 2008) (teaching language classes, translating
documents and working in organization's political
division at Iraqi base potentially equaled providing self
as "personnel"); United States v. Lindh, 212 F. Supp. 2d
541, 580 (E.D. Va. 2002) (training with and fighting
alongside terrorist groups in Afghanistan potentially
equaled providing self as "personnel"); United States v.
Goba, 220 F. Supp. 2d 182, 193-94 (W.D.N.Y. 2002)
(attending al Qaeda training camp for five weeks
potentially equaled providing selves as "personnel"); cf.
United States v. Stewart, 590 F.3d 93, 115 (2d Cir.
2009) (relaying repeated messages to and from
imprisoned terrorist regarding ongoing conspiracy was
"'active participation'" that equaled providing prisoner
[**151] as "personnel"); Awan, 384 F. App'x at 17
(soliciting another "for training and carrying out attacks
in India on behalf of" terrorist organization equaled
conspiring to provide recruit as "personnel"); United
States v. Marzook, 383 F. Supp. 2d 1056, 1065 (N.D. Ill.
2005) (recruiting another "to join Hamas and make trips
to the Middle East" to scout attack locations potentially
equaled providing recruit as "personnel").
These courts consistently distinguish between
[**153] activity and passivity, in each case criminalizing
the former and not the latter. The majority states that "it
may frequently be the case that a defendant who
intends to provide a terrorist organization with personnel
also intends for the personnel to provide the
organization with services." Majority Op., ante at [42].
That, I submit, is an understatement. To suggest that
Sabir became al Qaeda's doctor in Riyadh after the May
2005 meeting in the Bronx, thus facilitating more
dangerous missions, requires logical leaps that the
record below simply will not bear. 8 To serve the
"definition" contains requirements for liability rather than
simply defining the term, "[t]he implication is that while [such]
acts are necessary, they may not be sufficient").

Page 37 of 41
53a

634 F.3d 127, *181; 2011 U.S. App. LEXIS 2201, **153
statute's objectives without overreaching, some postagreement activity must be shown to establish an
attempt to provide oneself as personnel.
Further, by transforming offers to provide services into
attempted provision of personnel, the majority's holding
may sanction multiple punishments for a single offense.
9 An attempt requires a substantial [*182] step toward
criminality; a conspiracy requires agreement with
another wrongdoer. On these facts, however, the
majority substitutes evidence of agreement and intent
for evidence of the substantive crime. See, e.g., United
States v. Gore, 154 F.3d 34, 46 (2d Cir. 1998)
(disallowing multiple sentences for violations of a single
statute where, given the "narrow set of facts" presented,
"no longer does each offense require proof of a fact that
the other does not"). As the [**155] majority concludes,
at the May 2005 meeting, Sabir "formalize[d] his
promise" to work for al Qaeda. Majority Op., ante at
[41]. Thus, it is hard to see how the conspiracy and
attempt convictions meaningfully differ. See Iannelli v.
United States, 420 U.S. 770, 785-86, 95 S. Ct. 1284, 43
L. Ed. 2d 616 & n.18 (1975) (reaffirming that "the real
problem" in such cases "is the avoidance of dual
punishment").

8 The

majority cites to Congress's finding, made in connection
with § 2339B's adoption, that "[f]oreign organizations that
engage in terrorist activity are so tainted by their criminal
conduct that any contribution to such an organization
facilitates that conduct." Humanitarian Law, 130 S. Ct. at 2724
(quoting AEDPA § 301(a)(7), 110 Stat. 1214, 1247 (1996)).
This finding is "best read to reflect a determination that any
form of material support" to a terrorist organization,
[**154] including "ostensibly peaceful aid," should be barred.
Id. at 2724-25 (rejecting the argument that contributions which
advance "only the legitimate activities of the designated
terrorist organizations" are permissible). As such, I join in the
unanimous holding that § 2339B, by its terms, criminalizes the
practice of medicine (or the doctor himself) that Sabir agreed
to provide to al Qaeda. The record below, however, does not
support the conclusion that Sabir is guilty of attempting or
committing the substantive offense.
9 Although

Sabir did not raise a double jeopardy challenge, nor
could he have raised one, to an apparent conclusion of law
announced for the first time on appeal, multiple sentences for
the same offense are cognizable as plain error. See United
States v. Coiro, 922 F.2d 1008, 1013-15 (2d Cir. 1991). Sabir's
attorney did unsuccessfully argue below for concurrent
sentences, moreover, since the conspiracy and substantive
charges "are actually encompassed in the same conduct."
(11/28/07 Sentencing Tr., 05 cr 673, at 13-14.)

Conspiracy charges unaccompanied by a completed
substantive crime are relatively rare, and can be
troubling when the available evidence leaves one to
speculate whether the criminal objective would have
been realized. In this case, such concern is
compounded by the need to find the line between
radical beliefs [**156] and radical action. 10 The law of
attempt has evolved to take the guesswork out of finding
that line. At the one meeting Sabir attended, he indeed
chanted the mantra of the terrorist, led by the
government agent and inspired by his co-defendant. But
we are left to wonder whether his apparent enthusiasm
would have, or even could have, led to action on his
part. That should not be, and no imaginable view of the
evidence removes this uncertainty.
This Court observed in Crowley that "[t]he problem
faced by the drafters [of the Model Penal Code] was that
to punish as an attempt every act done to further a
criminal purpose, no matter how remote from
accomplishing harm, risks punishing individuals for their
thoughts alone, before they have committed any act that
is dangerous or harmful." 318 F.3d at 408. I submit that
the majority has done just that by abandoning the
notion, fundamental to attempt jurisprudence, that we
punish criminal deeds and not thoughts or intentions.
The majority declares, however, that the crime at issue
"is of a quite different sort." Majority Op., ante at [37].
Whatever the "sort" of offense, Sabir was not charged
with mere membership in al Qaeda or for being
sympathetic to some radical Islamic cause. Signing on
to the al Qaeda roster of loyalists (as reprehensible as
that may be) is not, and could not be, the crime at issue,
since "Section 2339B does not criminalize mere
membership in a designated foreign terrorist
organization. It instead [**158] prohibits providing

10 In

the context of 18 U.S.C. § 2339A, this Court has noted
that "[b]y applying . . . the prohibition against providing
'personnel' . . . to a circumstance in which the defendants
provided themselves, the government created a situation in
which the defendants could be punished for, in effect,
providing themselves to speak out in support of the program or
principles of a foreign terrorist organization, an activity
protected by the First Amendment." Stewart, 590 F.3d at 118
(contrasting this situation with that of providing another as
personnel, an activity that "does not carry the same risk with
its corresponding constitutional implications"). While giving full
import to § 2339B(h)'s limiting definition, to which the Stewart
panel cited, I submit [**157] that punishing do-nothing
"personnel" for violating the statute's substantive provisions "in
effect" punishes such actors for aligning with a terrorist
organization.

Page 38 of 41
54a

634 F.3d 127, *182; 2011 U.S. App. LEXIS 2201, **157
'material support' to such a group." Humanitarian Law,
130 S. Ct. at 2718; see also id. at 2730 [*183] ("[T]he
statute does not penalize mere association with a
foreign terrorist organization."); 18 U.S.C. § 2339B(i)
("Nothing in this section shall be construed or applied so
as to abridge the exercise of rights guaranteed under
the First Amendment to the Constitution of the United
States.").
The majority asserts that "a reasonable jury could have
concluded that," based on his May 20, 2005 actions,
"Sabir crossed the line from simply professing radical
beliefs or joining a radical organization to attempting
[the] crime" of providing himself to work under al
Qaeda's control. Majority Op., ante at [42]. The only
evidence tending to show such control is the oath. But
the litigants, and presumably the majority, agree that the
oath alone is not a basis for imprisonment. 11 At best,
the oath reflects an agreement and intention to follow
directions, but "mere intention to commit a specified
crime does not amount to an attempt." Manley, 632 F.2d
at 988 (internal quotation marks omitted). Despite the
majority's apparent preoccupation with Sabir's state of
mind, the independent evidence [**159] of attempt in
this case remains a pair of phone numbers. Those
evidentiary morsels cannot sustain the substantive
conviction.
As recent history tragically illustrates, provision of
material support of any form to a terrorist organization
emboldens that organization and increases the
likelihood of future terrorist attacks. That is why
Congress enacted statutes criminalizing such activity.
Simply stated, however, the majority has at once
unwisely re-written the law of attempt, raised freedomof-association concerns and possibly treaded on double
jeopardy protection, "opening the door to mischievous
abuse." United States v. Johnpoll, 739 F.2d 702, 715
(2d Cir. 1984). Regardless of Sabir's inclination, as a
matter of law, any step he took toward that end was
insubstantial
and
any
support
he
furnished
unquestionably immaterial.
In the end, a [**160] man stands guilty, and severely
punished, for an offense that he did not commit.
Therefore,
I
respectfully
dissent.

11 In

the government's own words: "[T]he bayat pledge, the
pledge itself, by Rafiq Sabir was not in and of itself a crime. . .
. The bayat itself is not the crime, but it is compelling powerful
evidence of those crimes. It shows exactly what Rafiq Sabir
was thinking. It shows his sincere commitment to aid al
Qaeda." 5/15/07 Trial Tr., 05 cr 673, at 2337.

Page 39 of 41
55a

